<html>
<title> - DEPARTMENT OF TRANSPORTATION AND RELATED AGENCIES APPROPRIATIONS FOR 1998</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]


<DOC>
 
                    DEPARTMENT OF TRANSPORTATION AND
                    RELATED AGENCIES APPROPRIATIONS
                                FOR 1998

=======================================================================

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                              FIRST SESSION
                                ________

 SUBCOMMITTEE ON THE DEPARTMENT OF TRANSPORTATION AND RELATED AGENCIES 
                             APPROPRIATIONS

                    FRANK R. WOLF, Virginia, Chairman

TOM DeLAY, Texas             MARTIN OLAV SABO, Minnesota
RALPH REGULA, Ohio           THOMAS M. FOGLIETTA, Pennsylvania
HAROLD ROGERS, Kentucky      ESTEBAN EDWARD TORRES, California
RON PACKARD, California      JOHN W. OLVER, Massachusetts
SONNY CALLAHAN, Alabama      ED PASTOR, Arizona
TODD TIAHRT, Kansas          
ROBERT B. ADERHOLT, Alabama  

NOTE: Under Committee Rules, Mr. Livingston, as Chairman of the Full 
Committee, and Mr. Obey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.

John T. Blazey II, Richard E. Efford, Stephanie K. Gupta, and Linda J. Muir,
                           Subcommittee Staff
                                ________

                                 PART 8

         STANDARD TERMINAL AUTOMATION REPLACEMENT SYSTEM (STARS)

                              <snowflake>

                                ________

         Printed for the use of the Committee on Appropriations
                                ________

                     U.S. GOVERNMENT PRINTING OFFICE
48-491                      WASHINGTON : 1998
------------------------------------------------------------------------

             For sale by the U.S. Government Printing Office            
        Superintendent of Documents, Congressional Sales Office,        
                          Washington, DC 20402                          







                       COMMITTEE ON APPROPRIATIONS                      

                   BOB LIVINGSTON, Louisiana, Chairman                  

JOSEPH M. McDADE, Pennsylvania         DAVID R. OBEY, Wisconsin            
C. W. BILL YOUNG, Florida              SIDNEY R. YATES, Illinois           
RALPH REGULA, Ohio                     LOUIS STOKES, Ohio                  
JERRY LEWIS, California                JOHN P. MURTHA, Pennsylvania        
JOHN EDWARD PORTER, Illinois           NORMAN D. DICKS, Washington         
HAROLD ROGERS, Kentucky                MARTIN OLAV SABO, Minnesota         
JOE SKEEN, New Mexico                  JULIAN C. DIXON, California         
FRANK R. WOLF, Virginia                VIC FAZIO, California               
TOM DeLAY, Texas                       W. G. (BILL) HEFNER, North Carolina 
JIM KOLBE, Arizona                     STENY H. HOYER, Maryland            
RON PACKARD, California                ALAN B. MOLLOHAN, West Virginia     
SONNY CALLAHAN, Alabama                MARCY KAPTUR, Ohio                  
JAMES T. WALSH, New York               DAVID E. SKAGGS, Colorado           
CHARLES H. TAYLOR, North Carolina      NANCY PELOSI, California            
DAVID L. HOBSON, Ohio                  PETER J. VISCLOSKY, Indiana         
ERNEST J. ISTOOK, Jr., Oklahoma        THOMAS M.FOGLIETTA, Pennsylvania
HENRY BONILLA, Texas                   ESTEBAN EDWARD TORRES, California   
JOE KNOLLENBERG, Michigan              NITA M. LOWEY, New York             
DAN MILLER, Florida                    JOSE E. SERRANO, New York           
JAY DICKEY, Arkansas                   ROSA L. DeLAURO, Connecticut        
JACK KINGSTON, Georgia                 JAMES P. MORAN, Virginia            
MIKE PARKER, Mississippi               JOHN W. OLVER, Massachusetts        
RODNEY P. FRELINGHUYSEN, New Jersey    ED PASTOR, Arizona                  
ROGER F. WICKER, Mississippi           CARRIE P. MEEK, Florida             
MICHAEL P. FORBES, New York            DAVID E. PRICE, North Carolina      
GEORGE R. NETHERCUTT, Jr., Washington  CHET EDWARDS, Texas
MARK W. NEUMANN, Wisconsin             
RANDY ``DUKE'' CUNNINGHAM, California  
TODD TIAHRT, Kansas                    
ZACH WAMP, Tennessee                   
TOM LATHAM, Iowa                       
ANNE M. NORTHUP, Kentucky              
ROBERT B. ADERHOLT, Alabama            
                                       
                 James W. Dyer, Clerk and Staff Director













 DEPARTMENT OF TRANSPORTATION AND RELATED AGENCIES APPROPRIATIONS FOR 
                                  1998

                              ----------                              

                                        Thursday, October 30, 1997.

                   U.S. DEPARTMENT OF TRANSPORTATION

        STANDARD TERMINAL AUTOMATION REPLACEMENT SYSTEM (STARS)

                               WITNESSES

KENNETH M. MEAD, INSPECTOR GENERAL
ALEXIS M. STEFANI, DEPUTY ASSISTANT INSPECTOR GENERAL FOR AVIATION
MICHAEL H. SHANKER, PROJECT MANAGER
GEORGE L. DONOHUE, ASSOCIATE ADMINISTRATOR FOR RESEARCH AND 
    ACQUISITION, FEDERAL AVIATION ADMINISTRATION
RONALD E. MORGAN, DIRECTOR OF AIR TRAFFIC, FEDERAL AVIATION 
    ADMINISTRATION
MICHAEL McNALLY, PRESIDENT, NATIONAL AIR TRAFFIC CONTROLLERS 
    ASSOCIATION
RICK WHITE, BOSTON TRACON CONTROLLER AND NATIONAL STARS REPRESENTATIVE
ANDY AKERS, NATCA, WASHINGTON NATIONAL AIRPORT

                          Introductory Remarks

    Mr. Wolf. Good morning. Welcome to the Committee. We have 
an hour and a half without votes and it would be ideal if we 
could finish it in that time. I am not sure that we can. They 
may have stacked a lot of the votes, which would take a lot of 
people's time. So if we can, we will do it. Otherwise, we will 
just come back after the votes.
    I will have an opening statement and then I will defer to 
Mr. Sabo. But I want to welcome everybody. The Subcommittee 
will receive testimony on the status of the FAA's Standard 
Terminal Automation Replacement System, also known as STARS. 
The system is designed to replace the computer work stations 
used by air traffic controllers in terminal air traffic control 
facilities across the country.

                         need for new computers

    The FAA's largest automation programs today are STARS and 
the Display System Replacement, DSR. STARS would provide new 
computers for the terminal facilities and DSR provides new 
computers for enroute facilities. These computers are designed 
not only to be more reliable than today's equipment but also to 
provide a computer system foundation for software enhancements 
which might be developed and fielded in the next century.
    Controllers and airway users have been waiting for the new 
equipment for over a decade. Because of the failed management 
of AAS--and we are not going to blame anybody here with regard 
to that--replacement of these computers is already many years 
behind schedule, and the current equipment is failing at an 
accelerated rate; i.e., National Airport.
    After extensive review and planning in 1994, FAA promised 
that a new acquisition system and a new focus on accountability 
would usher in this equipment on schedule and within budget. 
But over the past 9 months or so we have heard that the program 
is several months behind schedule and may have cost problems in 
the near term as well.
    To make matters worse, the primary organization 
representing users of STARS, the controllers' union, and they 
are basically going to be the end users, they have raised 
serious concerns that the human factors design may render the 
system operationally unacceptable.

                       Introduction of Witnesses

    The hearing today gives the Committee an opportunity to 
check the status of this important FAA program and determine 
the severity of the issues being raised. First, we will hear 
from Inspector General Ken Mead, who has been investigating the 
controllers' concerns at our request. The controllers came to 
us. We recommended that they visit Mr. Mead.
    And then we will hear from the FAA, George Donahue, the 
acquisition executive at the FAA. I appreciate, Mr. Donahue, I 
know you are probably very tired, just returning from India. I 
spoke to him on Friday and he went to India and is back. And so 
I understand that you are probably tired and we will try to be 
careful there.
    Then we will receive testimony from Mike McNally, the 
president of the National Air Traffic Controllers Union.
    Ken, this is your first testimony before the Committee. We 
welcome you back in your capacity as the IG. Your entire 
statement will be put in the record, if you can just summarize. 
But before you do, let me just recognize Mr. Sabo.
    Mr. Sabo. Nothing.
    Mr. Wolf. We will just go on. Again, if we can finish in 
that time, fine. If we can't, we will just come back.

                   Inspector General Opening Remarks

    Mr. Mead. Thank you, Mr. Chairman, Mr. Sabo. Let me 
introduce my colleague, Alexis Stefani. As I said, I will 
submit the full statement for the record.

                          human-factor issues

    Our overall message here is straightforward. We are within 
just a few months of scheduled acceptance testing and a series 
of unsettling human-factor issues have surfaced; that is, how 
the controllers will interface with STARS? Both FAA and the 
unions need to come together to identify the full range of the 
human-factor issues and resolve them. None that we have found 
in our work are unsolvable. It is in everyone's best interest 
to resolve the situation.
    At present, the situation is emotionally charged between 
FAA and the controllers. Relationships between the two on this 
issue are strained. I think what we all have to do is start 
looking forward, be more constructive, and work very hard to 
build an atmosphere of mutual trust.
    You may recall, not to bring up bad memories, but AAS--the 
Advanced Automation System. Two important lessons learned in 
AAS were not to constantly change requirements for acquisition 
and, secondly, to consider human-factor issues early, 
continuously and in depth.
    In the case of STARS, you will hear that the requirements 
have not changed. Yet the human-factor issues suggest that some 
changes are in order. I will cover three topics briefly: what 
the key human-factor issues are today; why they are coming to 
the fore at this late date; and what needs to be done.
    I don't want to leave the Committee with the misimpression 
that human-factor issues are the sole issues STARS faces. The 
perennial issue of software development is also of concern. I 
think FAA's statement aptly handles that issue and shows that 
FAA is taking steps to get on top of that. It also outlines the 
steps FAA is going to take.
    I want to make special note of NATCA's cooperation in our 
review. Their controller representative on STARS spent a good 
bit of time with us. That was deeply appreciated, and provided 
us good insights. I also want to thank, of course, FAA for 
their cooperation.
    Mr. Chairman, I have several props today. Sometimes a 
picture is worth a thousand words, and this is one of those 
cases.
    STARS is on the left; ARTS, which is the acronym for what 
is in use now, is on the right. The piece of equipment on the 
right is 20, 25 years old. STARS is the nearly $1 billion 
acquisition that will replace it with the terminal and the so-
called TRACON area, which is about 60 miles out from an 
airport.
    The current schedule would have the first site operational 
in Boston in December 1998, with the last site operational by 
February 2005.
    As I said earlier, human-factor issues have been identified 
by controllers and the maintenance technicians. In their view, 
issues that could reduce controller efficiency and possibly 
impact air traffic safety.
    It is important to recognize, Mr. Chairman, that given the 
variety of human skills and adaptability, no one solution is 
going to fully satisfy all users. Consequently, not all 
controllers view the significance of these human-factor issues 
in the same way, nor do they all agree on the best solution.

                          opaque window issue

    Let me describe the key human-factor issues that have been 
identified to date. The first is, the opaque window issue. 
There is a chart in front of you that looks like this. It has a 
blue screen that marks the display. STARS uses a format that is 
very similar to Microsoft Windows to provide the information to 
the air traffic controllers. That information is provided in 
windows that can be moved, resized or closed as needed.
    But as you can see from this chart, the background to those 
windows is currently opaque, so, it will obscure the 
controllers' view of aircraft behind the opaque area. 
Controllers will not necessarily know whether there is an 
airplane behind that screen.

                         heads-down time issue

    A second human-factor issue is heads-down time. Currently 
controller work stations have knobs, and you can see the knobs 
on the right on the ARTS, that allow the controller to operate 
many functions while continuing to view the display head-on. 
Because STARS has a digital display, functions currently 
operated with knobs will be accomplished with menus accessible 
from windows and lists. Controllers are concerned that this 
will require them to spend more time looking down at the 
keyboard rather than keeping their eyes on that screen.

                             keyboard issue

    An example of one of the functions is to change the 
brightness of the display on the existing system, you turn a 
knob. STARS requires four keystrokes and use of a trackball, 
which is the device on the right there. The keyboard--Tom, 
could you share the keyboard with the members?
    Mr. Sachs. Mr. Chairman, this is the keyboard for the 
current system. It is embedded in the desk. It leaves plenty of 
writing space so they have room to take notes or do their 
flight strips. This is the current keyboard that is projected 
for STARS.
    Mr. Mead. So STARS uses a keyboard that is similar to the 
one used on your personal computer at home, and that keyboard 
differs dramatically from the current controller keyboard. The 
current keyboard has an A, B, C, D, E, F function and it is an 
inset in the controller's desk.
    Under STARS, the keyboard is much different. It is also 
loose, and you can see it clearly there on the controller's 
desk. It is not inset.

    [The key layout is like that of a personal computer.]

                         aircraft display issue

    The aircraft display, some controllers feel the information 
displayed on the STARS screen doesn't provide sufficient 
details about an aircraft's position and its movement. For 
example, the current system shows a tail behind the target 
indicating where the aircraft has been. On STARS that history 
is shown by widely separated dots.

                            trackball issue

    The trackball is a data-input device that is similar to the 
mouse on a personal computer, and we have that as a prop, too. 
The human-factor issues include a trackball's size and weight 
and how it works.
    Mr. Sachs. The concern is this one is embedded in the desk. 
It will not move. If you are rushing and knock this off there 
is concern it will hurt it. This is embedded so you don't 
notice the weight.
    Mr. Mead. You can see from the display that under the ARTS 
system it is stationary; it is embedded in the controller's 
desk. And under STARS, it is movable and it is also fairly 
heavy.

                          writing space issue

    Writing space is another issue. The STARS workstation 
cannot accommodate a writing tablet without the controller 
moving the keyboard to an awkward position. Controllers need 
writing space to write notes on, and in some facilities use the 
space for flight strips. Under the current system, everything 
is recessed in the controller's desk, leaving room to write. 
They cannot do so under STARS without moving things around to 
awkward positions.
    [The information follows:]


[Pages 6 - 8--The official Committee record contains additional material here.]



                      repair and maintenance issue

    Mr. Mead. A final issue, and I did not bring a prop for 
this, was to repair or maintain the primary STARS system or the 
backup to the STARS system, maintenance technicians will have 
to use two different screens. The information displayed on 
those screens is not the same for the two systems. For example, 
the visual alarms are not the same for the primary and backup 
STARS. This is of particular concern to the maintenance 
technicians, not so much the controllers.
    I cannot tell you how much it is going to cost or how long 
it will take FAA to fix these human-factor issues. However, 
none appears unsolvable, at least the ones identified to date.
    The only estimate provided was to resolve the opaque window 
issue with transparent windows so you wouldn't be blocking 
aircraft anymore. The estimate there was $1 million and 2 
months for software development.

                   need for human-factors evaluation

    Until a full human-factors evaluation is done, Mr. 
Chairman, FAA will not know if there are other human-factor 
issues that must be addressed that we have not identified 
today, that haven't come to the fore.
    Why are these human-factor issues being highlighted at this 
stage of the STARS program? That is kind of an obvious 
question. We found several reasons.
    To begin with, human-factor evaluations are required under 
the FAA's acquisition program. But we found program documents 
going back to 1995 acknowledging that human-factor evaluations 
would be limited in the case of STARS, from the very beginning.
    A second factor was, FAA chose a very aggressive schedule 
which compressed an estimated 32 months of development and 
testing into 25 months.

                 use of commercially available products

    Finally, the STARS procurement relies heavily on 
commercially available products, and the winning contractor's 
proposal for STARS relied on systems developed for air traffic 
controllers in other countries that don't have necessarily the 
same terminal operations as we have in the United States. So 
some customizing to deal with the more unique environment in 
the United States is going to be necessary. I don't believe the 
full extent of those modifications was realized back in the 
inception of this acquisition.

                             actions needed

    FAA did have air traffic controller and maintenance 
technician involvement in the development of the STARS 
requirements. But a formal process was not established, and has 
not been, to identify, prioritize and fully resolve the human-
factors issues as the system was being developed.
    There is still time for FAA and the users to work together 
in identifying and resolving these issues. We recommend three 
points: First, that they perform a human-factors engineering 
evaluation on STARS; get that done, out of the way; it be an 
orderly, scientific, disciplined study, not just asking people 
for lists of changes that they would like to have made.
    Second, establish a credible process to identify 
andprioritize those. You may not be able to deal with every one of them 
to everybody's satisfaction.
    And finally, create a mechanism to resolve them. Just 
identifying these issues isn't the whole ball of wax. We also 
have to develop a mechanism to bring the parties together and 
say: ``here is how we would like them resolved.''
    FAA could do this by executing memorandums of understanding 
with the controllers and maintenance technicians, and that 
memorandum of understanding would not only make sure that a 
reasonable cross-section of facilities and controllers were 
identified and also establish a mechanism for resolving these 
human-factor issues.
    I am going to defer to Mr. Donohue from FAA to discuss some 
other issues on the computer development. I just wanted to 
focus on the human factor issues, and that concludes my 
statement.
    [The prepared statement and biography of Kenneth Mead 
follows:]


[Pages 11 - 20--The official Committee record contains additional material here.]



    Mr. Wolf. Thank you very much, Ken. I think since most of 
the Members are here, it would be better if we now hear from 
the FAA and then we hear from the controllers. Then, if 
everybody can sit at the table we can do the questions back and 
forth.
    Mr. Mead. That is fine.
    Mr. Wolf. Mr. Donohue, if you would like to join.
    Mr. Donohue. And I am also bringing Mr. Ron Morgan with me, 
as well.
    Mr. Wolf. And then Mr. McNally with NATCA.
    George, welcome. I appreciate your rushing back. Mr. 
Donohue left to go to India on Friday and is back today. And, 
you know, I know that is a very grueling trip. So I do 
appreciate it.

                          FAA Opening Remarks

    Your full statement will appear in the record, but why 
don't you just summarize, and we can then hear from the 
controllers' union.
    Mr. Donohue. Thank you, Mr. Chairman. I appreciate you 
moving this meeting back a little bit this morning to give me a 
little bit more time to adjust.
    I would like to say from the outset, since I read Mr. 
Mead's testimony this morning and I listened to his testimony 
just now, that I believe he is giving you a very accurate 
account of the issues that are pending on the STARS, and I must 
say I agree with almost everything he has in his full 
testimony. I think areas of disagreement may, in fact, be 
semantic and we can talk about those. But substantially I am in 
complete agreement, and I also am in strong agreement to his 
recommendations, the three recommendations that he just made.
    Having said that, let me go through some of this testimony, 
because I think it is important to have all the Members get 
some of these issues down, and probably if I read it is the 
most compact way to do it.
    So, thank you. I appreciate the opportunity to appear 
before the Committee today. We are talking about the Standard 
Terminal Automation Replacement System, which is the words for 
what STARS is an acronym for. This morning presents us, I 
think, a very good opportunity for all of us to discuss, and I 
hope pave the way to establishing what the key components of 
STARS software and hardware will be when the equipment is 
installed and deployed in the Nation's Terminal Radar Approach 
Control Facilities, or TRACONs.
    My colleague, Mr. Ron Morgan, who is director of air 
traffic for the FAA, will speak on the specific computer/human 
interface issues associated with STARS, because I think that is 
perhaps the main issue that we have in front of us today.

                       stars acquisition program

    Before I bring you up-to-date on the status of the STARS 
acquisition effort, I would like to briefly explain what STARS 
is and why its components are so critical to meeting the air 
traffic control needs of the 21st century, a move that I think 
we all agree is of vital necessity and long overdue.

                         need for new computers

    STARS is a joint acquisition effort for the FAA and the 
Department of Defense that will provide new computer hardware 
displays, keyboards, processors and software for up to 172 FAA 
and 199 DOD TRACONs and towers. The STARS program will provide 
a complete replacement of critical air traffic control 
automation equipment in FAA facilities that control terminal, 
area traffic and, as Ken said, roughly 50 to 60 miles around an 
airport.
    Replacing the existing system is important because the 
equipment we have in these facilities now, the Automated Radar 
Terminal Systems, or ARTS, are systems based on outmoded 
technology developed in the seventies and early 1980s that 
cannot adequately meet the growing demands on the system. ARTS 
consists of displays, computers and software acquired and 
subsequently modified over a period of 2 decades. The result is 
a system with unique components that are reaching the end of 
their supportable lives. Interim support programs have kept the 
system running in the short term, but we need a new system that 
can be supported and expanded to meet the aviation needs of 
this as well as the next century.

                      use of commercial technology

    STARS is being built utilizing the latest commercial 
standards and technology, thereby allowing for reduced 
maintenance costs and ease and affordability of future 
upgrades. The new system will also provide greater capacity, 
redundancy and functionality than the current system provides, 
key considerations at a time when the number of passengers 
traveling on U.S. airlines is expected to grow to nearly 800 
million by 2003.

                          stars contract award

    Following a 6-month-long competition, the STARS contract 
was awarded in September of 1996 to Raytheon's Electronic 
Systems Division of Marlborough, Massachusetts. The acquisition 
was completed under the FAA's new streamlined acquisition 
management system, which allowed the agency to have significant 
interaction with each bidder throughout the procurement 
process. This interaction was invaluable, allowing the FAA to 
determine accurately the maturity and capability of vendor 
systems.
    Each bidder's STARS system proposal required some post-
contract award development. None offered a completely off-the-
shelf solution suitable for use in the U.S. air traffic control 
system. The competitors, Raytheon, Boeing and Lockheed Martin, 
were all strong, capable companies, and each submitted a 
proposal that met the government's minimum requirements. 
Ultimately, the FAA terminal control integrated product team 
chose Raytheon as the best value for the U.S. taxpayer.
    The system the FAA wanted and needed to acquire was one 
that would facilitate the safe movement of air traffic while 
increasing system efficiency, with high availability and 
expansion capability. Raytheon's concept of the terminal 
automation environment of tomorrow was most advantageous in 
terms of the combination of technology, cost, management and 
past performance.
    Raytheon's STARS solution featured both highly reliable 
hardware built to accommodate expansion easily, and more 
importantly, a totally independent backup system, which is very 
desirable from a safety standpoint and I might add was unique 
in their proposal. In addition, at the time of award the basic 
Raytheon system was operational at a number of air traffic 
control facilities in other countries, and based upon our 
earlier experience with the advanced automation system, it was 
a very important part of our risk mitigation strategy for this 
program.
    Raytheon also proposed an excellent comprehensive field 
installation and transition approach from the current ARTS 
equipment to the news STARS equipment. A smooth transition is 
essential, recognizing as we all do, that the nation's air 
traffic control system cannot stop operating while new system 
elements are put in place. Under Raytheon's approach, STARS 
computers and software will be installed alongside theexisting 
ARTS equipment, and the ARTS monochrome displays will be replaced with 
new STARS color displays.

                           transition period

    I think we may go into that transition a few more times 
this morning in this testimony. That is a very important part 
of what we are about.
    During the transition period, controllers will use the new 
displays and the rest of the STARS system, but the old system 
will be available if the controller chooses to return to ARTS 
or in the event a problem occurs with STARS. A controller would 
be able to run the ARTS commands he or she is familiar with 
today, while using the new STARS color display. This fits in 
with our plan to ensure controllers are comfortable with the 
new STARS equipment, including color displays, different 
keyboards and different procedures, before we transition to the 
STARS software and total STARS environment.
    As I mentioned earlier, the STARS system designed by 
Raytheon includes its own independent backup system, which adds 
another level of redundancy that is not currently available.
    In summary, the Raytheon system was judged by the FAA and 
the DOD to clearly be the best value to the government and the 
most viable long-term solution. I know that our colleagues at 
DOD are eagerly monitoring the progress of the STARS 
acquisition and looking forward to modernizing their aging air 
traffic control infrastructure as we are.

                      software development concern

    Our vigorous oversight of Raytheon's progress under the 
contract reflects the lessons we have learned from previous 
major acquisitions, and overall we are encouraged by its 
performance to date. However, our oversight has led us to 
identify one area of concern, and that is software development.
    Despite assurances from Raytheon that it will meet the 
December 1998 milestone for operational readiness of STARS at 
the first airport terminal facility scheduled to receive this 
equipment in Boston, the FAA is concerned that Raytheon's slow 
start-up in software development, along with an unexpected 
increase in the amount of software code to be developed, might 
result in a schedule slip. We have therefore identified 
software development as at high risk of not meeting schedule, 
but we have not identified any risk of meeting performance.
    We took action immediately. To minimize the adverse effects 
of such a potential slip, we have taken specific precautionary 
measures or risk mitigation steps to ensure that air traffic 
operations will not be adversely affected by contractor 
performance. Again, I think this is an important part of the 
reason we went with the Raytheon contract, because it gave us 
several options in case problems did come up that would allow 
us to meet hardware schedule, which is our most critical 
problem at the FAA.

                      software interim milestones

    First, we have added more interim milestones--these are 
software interim milestones, primarily--and partial software 
deliveries during the next few months. This will allow us to 
monitor the contractor's progress better, and will help us 
resolve early and quickly any problems identified.
    In the event that STARS software is still not available 
when it should be, we have also developed a risk mitigation 
strategy to address that contingency. Last month, we 
successfully demonstrated the use of existing ARTS software and 
hardware combined with the new STARS color display. The ARTS 
hardware we are talking about is back-room equipment, not what 
the controller would be working with, but we are looking at 
putting STARS color displays that they would be working with, 
which is a critical part of our hardware concern about aging 
hardware, but would use the back-room computers.
    This move would be in line with the Raytheon transition 
plan that I mentioned earlier, and would permit us to continue 
down the planned acquisition path to full modernization with 
the critical expansion and backup capabilities we must have.

                         ollie displays or acds

    Another risk mitigation strategy has been explored. This is 
in the event that the STARS hardware displays are not ready and 
an alternative display system is required in the first few 
installation sites. We are completing pre-production of new 
color displays that would be compatible with the existing ARTS 
software currently in the facilities. The ARTS color displays, 
we call them ACDs, are known to some of our test engineers as 
Ollie displays. The FAA calls them ACDs.
    The ACDs would be an answer to potential display problems 
only in the event there would be delays in deploying that part 
of the STARS hardware. Although we do not see a problem with 
the STARS hardware schedule, it is important to be proactive, 
another lesson we have learned from past experience.
    We do not believe that installing the ACDs in more than a 
few facilities, at most, is either a better solution or a 
viable alternative to STARS, and I want to be very clear as to 
why.
    ACDs are only displays. ACDs do nothing to address our need 
for software expansion capacity and future safety functions 
that are coming down the road. They do not fix the processor 
problems. They do not take us where we want to go, where we 
must go, in terms of having a fully modernized expandable 
system with built-in backup. And, in fact, the Ollies or ACDs 
do not satisfy the DOD's concerns or needs at all. Therefore, 
they have great concern about that option.
    STARS does; that is, our preferred risk mitigation strategy 
of STARS hardware with ARTS puts us on the correct path to 
STARS functionality. It has been said that ACDs could be 
plugged in and used in the facilities tomorrow. This is not 
true. There are technical and pragmatic issues associated with 
ACDs that we believe would require significant time to resolve.
    At this point, the ACDs are only an FAA prototype. Although 
FAA has a contract in place to complete development of this 
product, we do not have a contract to procure or install it. We 
believe that fielding the first ACD system for operational use 
would take up to one year.
    This time would be needed for Lockheed Martin to complete 
current upgrades that they are doing in both the hardware and 
the software, in fact, going to X Windows, very similar, if not 
the same, as the X Windows that is in the STARS software. They 
also need time to work out some bugs that we are finding in our 
testing, and to document its design to ensure that the displays 
could be maintained and repaired in the future, validate 
functionality, and establish the infrastructure necessary to 
mass produce the displays.
    Although the use of the ACDs as a temporary solution in the 
event that STARS hardware display replacement falls behind 
schedule is something that we are still considering, ACDs are 
not a complete solution or even a more timely partial solution 
to the need for full modernization of our air traffic control 
system.

                        computer-human interface

    The design of the controller's display layout, also known 
as the computer-human interface, or CHI, for STARS is based on 
Raytheon's design developed for users in other countries, and 
is currently operational in 55 airports worldwide, including 
Frankfurt, which was the 18th busiest airport in the world in 
1995, and also in Oslo. In Frankfurt, where the system has been 
operating for more than 2 years, it has helped controllers 
handle more air traffic than that handled at Kennedy, 
LaGuardia, Houston, Philadelphia or Paris, just to name a few.
    I would say that a considerable amount of human factors 
research with Raytheon and the European Community has gone into 
many of these issues. So part of the reason that we have not 
spent as much time on the human factors in STARS, as was 
discussed by Mr. Mead, is that we were really getting the 
benefit of a lot of investment by other countries who are doing 
comparable air traffic controller features. Some of these 
airports, like Frankfurt, are major hub airports and in fact 
are becoming more similar to our system today than they were in 
the past.
    Although the CHI is suitable for users in other parts of 
the world, customization of the design is required to ensure 
suitability in the United States. That is the reason why we 
have any software development at all in this program.Otherwise 
we could have bought an off-the-shelf system and be installing it 
today.
    We intend to learn from the positive comments that we have 
heard about the ACD design and put that knowledge to work as we 
work with our labor partners to modify the human factors 
elements of STARS to be more acceptable to them. Now is the 
time for FAA and user representatives to nail down the 
remaining design issues and agree on how we will resolve them, 
I think, as Mr. Mead has recommended in his testimony.
    At this point, I would like to have Mr. Morgan address 
specifically some of the computer-human interactions because I 
think that is the biggest issue that we have in front of us.
    [The prepared statement and biography of George Donohue 
follows:]


[Pages 27 - 36--The official Committee record contains additional material here.]



                FAA Air Traffic Director Opening Remarks

    Mr. Morgan. Mr. Chairman, good morning, and Members of the 
Subcommittee.
    As director of air traffic of the Federal Aviation 
Administration, I am responsible, along with the other 24,000 
men and women air traffic control professionals, for the safety 
and efficiency of the system on a day-to-day basis, and so the 
STARS system and the decisions to deploy equipment into air 
traffic facilities is vitally important to the success of my 
job and the job of all air traffic controllers.
    We know that the success of STARS depends in large part on 
air traffic controller acceptance of the new system, and we are 
working very hard to achieve national consensus on changes that 
will best meet the needs of all of those on a system basis. 
From the beginning, FAA has included controllers, represented 
by the National Air Traffic Controllers Association, in the 
STARS acquisition program.
    NATCA has participated in each phase of the STARS 
acquisition as a member of the air traffic requirements 
organization. NATCA has provided the essential operational 
perspective during all activities, including the development of 
the STARS requirements and the product verification testing 
that led to the contract award to the Raytheon company.

                        Computer-Human Interface

    A NATCA national representative also has been involved 
since the STARS contract award in activities specifically 
related to the STARS computer-human interface, or CHI, as we 
call it. Early on, the FAA directed Raytheon to implement 
changes to address NATCA concerns about providing independent 
keyboards and trackballs, datablock blinking, datablock 
features and alert indications. So we have listened to the 
input and have implemented the input that has been given to us.
    In addition, we have invited NATCA representatives to the 
Raytheon plant for familiarization with the STARS system in its 
current state, and want to work together to compile and resolve 
any additional concerns that controllers agree on, nationwide.
    Let me say at the outset that it is completely appropriate 
and essential for controllers to express their C-H-I, or CHI, 
concerns. As a controller in both a terminal and an enroute 
environment many years ago, I had the opportunity to transition 
through many systems, both in the ARTS systems and in the 
enroute facilities when we went to 9020, and then to the 
existing host systems.
    Each change is significant. It creates much training. It 
creates an additional workload. But, in fact, the system that 
we have today, the safest in the world, would not be that 
system had we not made those changes back in those years.
    What we are doing with STARS is the development of a 
platform that will allow us to enhance the capability, capacity 
and safety based on future enhancements that are coming on 
downstream in our acquisition program.
    Meetings with some NATCA representatives have alerted us to 
several potential STARS issues, and Mr. Mead and Dr. Donohue 
have mentioned that there are some CHI issues, and I would like 
to address four CHI issues just very briefly.

                            computer windows

    First, the use of computer windows in the STARS product is 
very similar to the windows environment familiar to personal 
computer users. The STARS windows are used to display 
information critical to controllers in the execution of their 
duties. The challenge is to design a windows environment that 
provides the information without obstructing the view of other 
critical information, such as aircraft radar targets.
    The STARS design of today uses opaque windows that can be 
moved to any location on the display or even be reduced to an 
icon for later use. Informal input from NATCA union 
representatives is that the opaque windows will not be suitable 
because they may obstruct radar targets, and we are currently 
examining the use of transparent windows that will allow for 
the visibility of aircraft targets under the window text, and 
other potential modifications to achieve user acceptance and 
system suitability. We continue to seek union participation on 
definition and selection of an acceptable design, and we do not 
see any technical impediments to adopting the NATCA-preferred 
design once we know with certainty what that is.

                            keyboard design

    Second, today's ARTS keyboard is laid out in an ABC 
function, as Mr. Mead demonstrated. The design is consistent 
with keyboards--excuse me. The QWERTY keyboard is designed 
consistent with existing keyboards much like you and I use on 
our personal computers.
    I should mention that the QWERTY keyboard is not unique to 
the terminal environment, in that there are other systems that 
are contained in our terminal radar approach controls and our 
towers that also use the QWERTY keyboard. The only keyboard 
that is unique within the terminal environment is the ARTS 
keyboard. So, in fact, there is a transition associated with 
that. That transition needs to be worked through. But, in fact, 
we are moving to what the industry standard is by using the 
QWERTY keyboard.
    However, I should say that if the decision is made to use 
an ABC keyboard much like the existing ARTS keyboard, the 
system will be adapted to that and it can be accomplished 
rather quickly.
    Third, controllers have expressed concerns that STARS will 
require controllers to divert their attention away from the 
display of air traffic to the keyboard in some situations. For 
example, controllers will have to adjust to manipulating data 
and display with keyboard entries, as compared to using knobs 
in today's system. That is common to both solutions that were 
briefed by Mr. Mead. The Ollie system and the STARS early 
display system, neither display has knobs associated with the 
display. Both require manipulation of data through keyboard 
entries.
    If the decision is made to modify the CHI associated with 
those entries, that also can be accomplished in a rather quick 
manner.

                            Trackball Design

    Fourth, the union representatives have expressed 
dissatisfaction with the trackball used in the existing STARS 
design. The trackball used by Raytheon is that used in the 
FAA's new enroute automation system, and the one that was 
chosen with the input of NATCA representatives. However, if the 
ACD trackball is preferred, we can also substitute this 
trackball in the STARS design.

                         Training Requirements

    And finally, the union has indicated concern about the 
amount of training that will be required for controllers prior 
to the use of the STARS system in an operational environment. 
Today, we estimate that it will take about 2 weeks to train 
controllers on the STARS system. While this training will be 
required prior to the use of the STARS computers and software, 
significant training will not be required to use the transition 
system, STARS with the ARTS software, especially if the ARTS 
keyboard and trackball areretained. We already have a NATCA 
representative on the STARS training team, and will continue to work 
with NATCA to further clarify training needs and resolve outstanding 
issues.

                            controller input

    We have made a good faith effort to include representatives 
from the controller workforce in the STARS program; I believe 
we have, and have highlighted for you in this testimony. Have 
these efforts been successful, as successful as we would like? 
And the answer to that is no, they have not been. We need to 
continue to explore with NATCA additional approaches and 
opportunities to ensure that our controller workforce is 
informed about and comfortable with their new equipment. We 
also support the IG's suggestion for developing a more 
formalized, systematic way to resolve these issues, and we will 
do that.
    In summary, Mr. Chairman, we take the design issues raised 
by the controllers very seriously. We will take the time to 
evaluate controller input and make changes. Now we simply need 
to know what those changes are, agree upon them and move 
forward.
    We will not deliver a STARS system that is unsafe, and we 
want to deliver a modern system whose elements work for 
everyone. Timely input will allow us to keep the STARS program 
on schedule and will not delay the delivery of vital display 
equipment to the field.
    STARS will perform the functions we need to perform today 
and will also provide a standard platform for improvements to 
handle the ever-growing volume of air traffic safely and 
efficiently well into the 21st century. Obsolescence is a major 
challenge when it comes to computers, and we will all, 
government, users, the traveling public, and the taxpayers, 
benefit from an air traffic control system that can be easily 
modernized.
    Despite the challenges we have faced, we believe that 
STARS, with its modern software, strong system architecture and 
excellent transition approach, is the right solution for 
upgrading our terminal air traffic control computers, displays 
and software. We stand ready to accommodate changes to the 
STARS system that will enable our controllers to use this 
system with confidence.
    This concludes my prepared statement, Mr. Chairman.
    [The prepared statement and biography of Ronald Morgan 
follows:]


[Pages 41 - 48--The official Committee record contains additional material here.]



                         NATCA Opening Remarks

    Mr. Wolf. Thank you, Mr. Morgan.
    Mr. McNally, please, for the air traffic controllers union.
    Mr. McNally. Yes, I thank you, Mr. Chairman. I have with me 
Rick White, who is a Boston TRACON controller, who was also our 
national STARS representative over the previous year. He will 
be here as my technical question answerer.
    Mr. Wolf and Members of the Subcommittee, we appreciate the 
opportunity to testify before you here today on a very 
important program that is near and dear to our heart, this 
replacement system for the TRACON environment.
    The air traffic control system established in the United 
States is unique to and more dynamic than any other air traffic 
control system in the world. Computerized controller tools and 
air traffic systems that work in smaller countries may not work 
here. It is not only a matter of small versus large volumes of 
traffic, but the method in which the traffic flows within the 
individual country.
    Traffic is metered differently in all countries, and no 
other country utilizes the hub and spoke system as dramatically 
as the United States. It is not unusual for airports in this 
country to accept more than 100 aircraft arrivals in a single 
hour, with a matching number of departures. This would be a 
major event for many other countries in the world.

                          terminal controllers

    Most of the engineers who build computerized controller 
tools and air traffic systems have a limited understanding of 
the art and science of air traffic control and how air traffic 
controllers handle the traffic in a terminal environment. Some 
believe that the same systems that work in the enroute 
environment will satisfy the needs of the terminal controllers. 
This mistake has led manufacturers to offer systems that employ 
almost exclusively commercial off-the-shelf and 
nondevelopmental item equipment when the controllers' needs 
dictate a more customized approach. This is precisely why we 
are here today and why NATCA is concerned about the development 
of STARS.
    The FAA has testified today that NATCA has had a presence 
on the STARS project since its inception. This is true, and one 
of the controllers who have participated in this project is 
with me today. It is also true that NATCA has made it very 
clear to the FAA that there are problems with STARS that must 
be rectified before it can be a workable product within the 
terminal environment. In fact, the FAA is unable to produce any 
documentation that any of the controllers who worked on this 
project felt otherwise. Unlike the Advanced Automation System 
that was near completion prior to controller involvement, this 
project was deemed unsuitable for terminal controller use by 
NATCA controllers over a year ago.

                         Human factors research

    Human factors. As long as ago 1988, the now disestablished 
Office of Technology issued a report that criticized the 
handling of human factors research in the FAA. An Air Transport 
Association of America task force of industry and government 
representatives corroborated the findings of OTA and proposed 
the development of a plan that would address these 
shortcomings.
    Finally, acting out of concern for the safety of the flying 
public, Congress passed the Aviation Safety and Research Act of 
1988. The Act called for the FAA to increase its research into 
aviation human factors. The FAA responded with the National 
Plan for Aviation Human Factors first published in 1990. In the 
intervening years, the plan has been revised, updated and 
finalized. The results, published in March 1995, is The 
National Plan for Civilian Aviation Human Factors: An 
Initiative for Research and Application.
    There has been very little human factors effort put into 
STARS except that provided by the NATCA controllers. Clearly, 
human factors aspects of STARS should have been incorporated at 
the forefront of the STARS effort and have continued throughout 
the project. This is simply achieved by including, and more 
importantly, listening and responding to human factors experts 
and the users, air traffic controllers, for the life of the 
product development. In the past, FAA has determined that 
people in their staff offices who once were air traffic 
controllers are sufficient to identify and rectify human 
factors problems, but they are wrong. Only controllers who must 
use the system on a daily basis have the immediate currency 
required to do this.

                        Computer-Human Interface

    To meet the demands imposed by the increasing volume and 
complexity of air traffic, new ATC systems are becoming more 
automated. These systems not only affect what the controller 
does, but can also enhance or detract from the controller's 
ability to do the job. It is the human being that calls the 
shots in the fluid world of air traffic control. Human 
intellect, flexibility and creativity will continue to guide 
the operations of the ATC system.
    Mindful of this fact, it is essential that the FAA and the 
manufacturers take into account the needs of the human air 
traffic controller. It is particularly important that system 
designers avoid being seduced by technology when proposing a 
new application for automation. Though automation can 
significantly augment the ability of the individual human 
operator, giving them the opportunity to greatly leverage their 
actions, it can also confound them, sometimes at the worst 
possible moment, and magnify the impact of a mistake to an 
unprecedented degree.
    At this time, STARS computer-human interface does not 
reflect the input of NATCA terminal controllers, or the way 
controllers perform their duties in terminals throughout 
theUnited States. If implemented, the STARS CHI may have a debilitating 
impact on the capacity, the efficiency, and quite possibly the safety 
of the national airspace system, and will result in delays to air 
traffic system users throughout the system. Workplace acceptance of any 
computerized system and its associated displays is a major issue. The 
computer-human interface associated with STARS makes it operationally 
unsuitable at this time.

                              common arts

    The FAA is indeed fortunate that they have a proven product 
to replicate if they wish to satisfy the needs, the immediate 
needs, of the terminal air traffic controllers. The back-room 
brains of the terminal air traffic control systems, ARTS, has 
been in use in this country for over 30 years and enjoys wide 
acceptance by controllers.
    FAA has been diligent to maintain and upgrade ARTS, and has 
developed a methodology to tie together all the different ARTS 
into one system, called common ARTS. By utilizing a modern 
fully distributed Local Area Network and connecting and 
upgrading these systems, FAA will provide a modern process in 
the system with intelligent display terminals. The distributed 
processing architecture provides for improved system 
availability and maintainability and, even more importantly, 
satisfies the needs of terminal controllers. This enhanced 
common ARTS system architecture permits new functionality such 
as Center TRACON Automation System, CTAS, Final Approach 
Spacing Tool, FAST, and Final Monitoring Aid to be readily 
integrated without disrupting service or controller 
performance.
    These systems are necessities for improving air traffic 
controller productivity, expanded system capability and 
enhanced system reliability.

                             ollie monitors

    The radar display that FAA develops also can be replicated 
from one that has received wide approval by air traffic 
controllers who have been able to see and perform an informal 
hands-on evaluation. The display that has received the Ollie 
monitor is one that controllers can easily relate to because it 
includes all of the ARTS on-screen information and data entry 
capabilities that are familiar to them today. Ollie was 
developed as a low cost direct replacement of existing ARTS 
displays. Ollie development included hands-on controller 
evaluation and feedback to ensure immediate suitability in 
today's busiest air traffic control environments.
    One of the controllers who has seen both the STARS and the 
Ollie system displays is a NATCA facilities representative at 
Washington National Airport. By the way, Mr. Chairman, last 
night we had 6 radar scopes go out, out of 10, at National.
    His statements to the press were based upon fear that his 
members would receive the present STARS system, which he knows 
will have an adverse effect on his facility, instead of Ollie, 
which he knows will not. He has been placed by FAA in the 
untenable position of accepting a system that possibly will 
disrupt the airport's overall operation and diminish the 
excellence of control work long associated with this facility, 
in order to replace aging equipment that will continue to 
experience breakdowns in an alarming rate. Obviously his fears 
would be allayed if a product were developed that would satisfy 
the immediate needs of the controllers he represents and so, 
Mr. Chairman, would ours.

                            controller input

    Mr. Chairman, before I conclude, I would like to state for 
the record the gross misrepresentation by the FAA regarding 
controller involvement in STARS. NATCA has had one controller 
at a time involved with STARS since its inception. No more than 
3 or 4 controllers nationally have had the opportunity to work 
with the system long enough to identify all of the problem 
areas. It literally took Congressional intervention to get a 
replacement NATCA STARS representative. We have not had one for 
about a 6-week time frame. It has been a year and a half since 
we had a global positioning system/wide area representative. 
The list goes on. The meeting that was referred to, in which 
controllers were involved in Raytheon up in Marlborough, 
literally occurred on September 22nd and October 2nd of 1997.
    The problem is ironically not in the Air Traffic Systems 
Requirement Service but in Air Traffic, who want to play petty 
labor relations games with NATCA. Modernization efforts paid 
for by taxpayers' dollars are not labor relations issues, nor 
should they be. We need to do what is right for the American 
public and not the egos of air traffic managers who apparently 
desire confrontational relationships rather than partnerships 
with controllers.
    I believe we are here today in large part due to the 
resurgence of heavy-handed air traffic management reminiscent 
of that which led to the 1981 PATCO strike. We do not want to 
be blockers of progressive change. We want to assist the FAA in 
being successful. They are our employer. We gain nothing long-
term as FAA employees when our employer continues to lose 
credibility and fails.
    If we can gain anything from this hearing besides the 
immediate issue, Mr. Chairman, we need change once and for all. 
An FAA management culture whose desire is to fight rather than 
cooperate needs to stop. If we had handled STARS as we did the 
display system replacement, which was established prior to the 
recent changes, we would be much further along towards a 
successful conclusion rather than fraught with controversy and 
mistrust of the FAA's agenda.
    I am willing to do whatever it reasonably takes to get us 
off the course we are currently on. Your assistance, Mr. 
Chairman, could prove invaluable.
    Mr. Chairman, rather than indicate the specifics of NATCA's 
problems with STARS, I would be more than happy to answer 
specific questions with the assistance of Mr. Rick White, 
sitting next to me, who will address the technical issues. I 
thank you.
    [The prepared statement and biography of Michael McNally 
follows:]


[Pages 52 - 56--The official Committee record contains additional material here.]



                             faa management

    Mr. Wolf. Thank you, Mr. McNally. And just for the benefit 
of the other members, I should say the air traffic controllers 
came to me, and I thought they made a very, very legitimate 
case. I have had, and I know there are several members who are 
new on the committee, I have had some serious questions with 
regard to FAA management. Let me just put on the record that 
this does not have anything to do with Jane Garvey, who is new.
    Years ago, there was Gregory May's cult-like training in 
the FAA. They literally tied them up--where Mr. McNally sat was 
an air traffic controller from Utah, who told us he was tied up 
and had to go through a groping line. A lot of other things 
went on, you all remember the story that went on.
    There was a reluctance for people at the FAA to come 
forward. I thought a lot of that had been taken care of, but 
there was an issue that came up earlier this year, and what I 
will do is write a memo to all the members of the committee 
making available the background data so you know what happened.
    There was an issue with regard to Potomac Metroplex, where 
the FAA lied to us, quite frankly. We have a report from the IG 
which I will make available to all of the members. There were 
documents, which we will also make available to the members, 
where an individual at the FAA said, ``When you goup and see 
Wolf, don't leave him with anything and don't tell him anything.'' It 
is very offensive, frankly.
    Had it not been for the air traffic controllers, many of 
whom live in my Congressional district--and let me just say, 
this is not a National Airport problem. That is why Mrs. 
Morella is here, because the system at National is going down 
over and over and over, but this is also a nationwide problem. 
It is a delay problem and also, if you believe the air traffic 
controllers, it is a safety or potential safety problem.
    So my confidence level in the FAA, after seeing these 
documents where my name was mentioned saying ``don't tell Wolf 
this, don't tell Wolf this,'' air traffic controllers came to 
me. One of the opportunities that I have is, many of the people 
that work in the Federal Government live in my Congressional 
district, and they were on this group that was looking at the 
Metroplex and we had the leadership, a certain individual 
saying no, when all the technical people were saying yes.
    The Secretary asked Mr. Mead to do an investigation. They 
did an investigation. They validated what I am saying, so it 
isn't just my opinion, and we will also share that with all of 
the members. But after the Gregory May cult-like training, the 
reluctance to come forward, which we thought was out of the 
way, and then this whole issue on the Metroplex with regard to 
the statements that were being made in the FAA, and then Mr. 
Mead's validation and also the validation of a private group 
which was called in to look at it.
    There really has been no reluctance of FAA personnel to 
come forward. We get people that call us. When Ms. Garvey was 
appointed, we had a lot of people write me letters, and I have 
transferred them all to Jane Garvey. Again I want to make 
clear, nothing I say has anything to do with Jane Garvey.
    We have shared all of those, and I think Ms. Garvey is 
moving ahead. We also had the AAS. What did that cost the 
government? What was wasted? Lynn Helms, the administrator in 
1982, when I was on the Public Works Committee, came up and 
testified. What was the waste on that? Do you know, Mr. Mead, 
roughly?
    Mr. Mead. At least a billion.
    Mr. Wolf. At least a billion dollars. There were also 
problems with FAA people--one individual had been purchasing 
stock in the company, and a lot of other problems the IG 
identified. We just wanted to make sure that did not happen 
here on our watch, and that is why this hearing is being held.
    One last comment, and then I will have a couple of 
questions but I will just defer to the members first, is it 
does appear that we have made some progress. Mr. Donohue, you 
have said, and I do trust you completely, I want to make that 
clear, that you are going to sit down and meet with them and 
deal with these issues. Of course, Mr. Morgan, you said if that 
is the case, then we will look at this; if that is the case, we 
will look at this.
    Maybe we have actually solved the problem. If you said that 
you agreed with Mr. Mead's points, the human factors, the 
credible process to identify and also some mechanism to resolve 
it, maybe we have actually solved the problem.
    But that is the whole background of it, and I think the air 
traffic controllers have a very, very valid point, and have 
felt sort of shut out of this process that was supposed to be 
one whereby they were the people that were operating it that 
were going to know. So there was a history of problems, 
reluctance to come forward and also not, frankly, telling the 
truth. And in addition to not telling the truth, also a plan by 
the government to mislead.
    You know, when Senator Byrd tried to move the CIA out of my 
Congressional district, out to West Virginia, half the CIA who 
live in my district were giving me material. I mean, I couldn't 
get it from anybody else. And the same thing happened in the 
FAA. The people were coming and telling me.
    Just two or three questions and then I will defer to Mr. 
Sabo and the other members.

                   design issues and controller input

    Mr. Mead, should we be concerned about the design issues 
raised by the controllers? And do you think is there a 
consensus position among the controller workforce?
    Mr. Mead. You should be concerned.
    Is there a consensus view? I believe on the bulk of the 
items we identified that, yes, there is a consensus that that 
is a problem. How to resolve them is a somewhat different 
issue, and that is why the first part of that recommendation 
calls for a formal human-factors evaluation. It is not unusual, 
in an undertaking that is approaching $1 billion of taxpayer 
money, to do this in a formal, orderly way.
    Mr. White is the controller I referred to in my statement, 
and to whom I expressed appreciation. But I think Mr. White 
would have some reservations about whether he can offer 
solutions for everything in a 15,000-person workforce. That is 
why we need a more formal approach. I think that could be done 
over the next several months without a great deal of schedule 
slippage.
    Mr. Wolf. Just for now, and then I will defer to the 
others, I have two other questions: Has the FAA involved and 
listened to the controllers as much as they should have in 
this?
    Mr. Mead. No.
    Mr. Wolf. No. I think with that, I am just going to defer 
now to Mr. Sabo and then the other members.

                            contract summary

    Mr. Sabo. Two or three questions. Just so we have it, could 
we have a summary of what the contract is, how it works, what 
penalties are if time frames aren't met and what happens if 
modifications have to be made?
    And I don't want--I have other questions so I don't want a 
description of it now.
    Mr. Donohue. I think that if it would be appropriate, it is 
a very detailed contract, it has many different phases, and 
maybe we could supply that information to you?
    Mr. Sabo. I don't think I would like to read the contract.
    Mr. Donohue. Why don't we give you a summary of some of 
those points.
    Mr. Sabo. Yes.
    Mr. Donohue. It is basic. Most of this contract, 90 percent 
of this contract, is installation and hardware purchasing. The 
hardware is, I would consider, completely off-the-shelf 
hardware. There are no development items for the hardware. 
There is some customization of the software, so about the first 
10 percent of this $940 million contract has a development 
aspect to it. So we have different conditions for different 
phases, whether it is installationor whether it is a hardware 
cost or whether it is a development cost, and we can get that 
information to you.
    [The information follows:]

    The STARS contract is divided into two phases, 
Preproduction and Production.
    The Preproduction phase includes the development efforts, 
mostly customization of commercial off-the-shelf software, as 
well as overall system engineering and testing. This phase is 
concerned with refining and allocating the known requirements 
between the Initial System Capability, which will provide basic 
air traffic control functionality comparable to today's 
terminal automation system, and the Final System Capability, 
which will include all system and software engineering for full 
required functionality at all sites. This final phase adds a 
number of functions, for example, to increase the ease and 
reduce the cost of maintaining the system, and to add software 
tools to enhance the spacing of aircraft, thus increasing 
capacity in the national airspace system.
    For the first phase, the contract is primarily a cost plus 
award fee type, wherein the contractor is reimbursed for its 
reasonable and allowable costs incurred. This is a standard 
contract type when the technical solution is not firmly 
identified at contract award. If the contractor timely provides 
a high-quality product that technically satisfies FAA's 
contracted for requirements, it may receive an award fee as 
high as 12% of the estimated costs (estimated when the contract 
was awarded, this is now a fixed amount that the contractor 
migh tearn, but which will decline if the contractor is late, 
over budget, or does not deliver a high quality product). The 
FAA considers this an extremely effective tool for contractor 
motivation, as there is no ``base'' fee. In other words, if 
certain milestones are not met, the contractor will receive no 
fee or profit. In addition, the contract contains incentives 
for ``flowing down'' this fee (if earned) to the contractor's 
engineers, developers, and others directly involved in 
providing the systems. The contract also contains clauses 
setting out the Government's rights in the event of the 
contractor's default. These rights can be exercised in whole or 
in part, and other remedies may be applied as well.
    The Production Phase includes hardware acquisition and 
system installation. Delivery orders will specify the actual 
quantity and configuration of systems at each site, as well as 
the time of installation. The Government must order a minimum 
of 24 site configurations each year. The delivery orders will 
be placed under one of three option year periods, FY98-00, 
FY01-04, and FY05-07. These systems are fixed-price systems, as 
there is little risk to the contractor as to developmental 
uncertainties in what is being procured.
    Contract modifications are made when the Government needs 
to change the technical requirements, schedule or other terms 
of the contract; an option is exercised; expected funding for 
the program is reduced; or the contractor proposes a change 
that the Government deems would be in the Government's best 
interests. In each of these instances, except for the exercise 
of an option, the contractor is equitably reimbursed its costs 
of making the change, the schedule is appropriately adjusted, 
and the contractor may be entitled to an additional fee. When 
options are exercised, the technical requirements, schedule and 
cost or price are as were negotiated at the time the contract 
was awarded. If the contractor overruns its planned costs for 
the cost-reimbursement portion of the contract, it is still 
reimbursed for those costs (assuming that the costs are 
reasonable, allowable and allocable), but it receives no 
additional fee. If the contractor overruns a fixed price 
portion of the contract, it receives no reimbursement from the 
Government for any amount above the fixed price.

    Mr. Mead. Mr. Sabo, most of the human-factor items I 
mentioned during my testimony would be additions to the 
contract.
    Mr. Donohue. Right.
    Mr. Mead. That would be the contractor's position, I 
believe.
    Mr. Donohue. Right.
    Mr. Mead. Which would mean more money.
    Mr. Donohue. The development usually is a cost-plus phase.
    Mr. Sabo. I go through all of these acronyms and I get lost 
at times. Do I sense a certain degree of difference that from 
the perspective of the controllers, the improved hardware is of 
primary importance, while the agency puts more emphasis on the 
new program?
    Mr. McNally. Yes, sir. I think we can say yes. We have, 
other than just the human factor issues, at this point also our 
major fear is that we have not had the opportunity to truly 
flesh out the system to see what impacts it will have. There is 
a very fundamental air traffic control tool that is lost as we 
transition to STARS, and that is something that nobody is truly 
focusing in on. It is a massive change to the operation of a 
TRACON controller. So there are other items of a technical 
nature, not just the CHI issues, the human factor issues.
    Mr. Sabo. Let me rephrase it, then. Your priority would 
be--I am not sure. I am trying to figure out how I state the 
question. As I listened, in your judgment, the current 
upgrading, the programming or the software that you have today, 
with improved hardware, does a pretty good job.
    Mr. McNally. Yes.
    Mr. Sabo. I take it the agency is putting more emphasis on 
new program development that goes along with new hardware. Am I 
right?
    Mr. McNally. Yes, we have two--we have an immediate need, 
that we feel that there is a system out there that can suffice 
and it is applicable to the ARTS, what we currently have in 
place today.
    Mr. Sabo. Yes.
    Mr. McNally. STARS, we feel, is going to require much more 
development to be a usable system for us, as a program point of 
view.
    Mr. Morgan. Congressman Sabo, if I may help with this, 
there are two options in front of us, at least at this point, 
that we have been working and there may be other options, too. 
One is under contract, called STARS, which is a total system 
replacement of our computer, not only the displays but the 
back-room equipment and the software system.
    Mr. Sabo. The entire system?
    Mr. Donohue. Hardware and software.
    Mr. Sabo. Yes.
    Mr. Morgan. The other option that we have been looking at 
is the display we referred to as Ollie, which is a display 
replacement only.
    Mr. Sabo. Right.
    Mr. Morgan. And unlike our personal computers on our desk, 
the displays are not interchangeable on these very complicated 
air traffic control systems. If, in fact, an Ollie display was 
put in, we still have a system replacement to look at, and that 
Ollie display at least currently is not compatible with our 
approach that we are taking with the overall system 
replacement. So it is important to keep that perspective in 
place.
    The second part of that question, the second part of your 
question, is one that we need to move ahead and have expanded 
capability in our processor. The only way we can do that is to 
replace the back-room equipment, the ARTS system, which is the 
system approach.
    Mr. McNally referred to a couple of capabilities called 
FAST, the Final Approach Spacing Tool, and other types of 
applications which are in various stages of development. Our 
existing system will not handle those applications, so we are 
forced to do a total system replacement in order to move ahead 
and accommodate those applications.

                   compatibility with other equipment

    Mr. Sabo. Well, let me ask this question as it relates to 
the STARS system: Will that be compatible with other equipment 
in the FAA inventory, such as the precision runway monitor and 
final monitoring aids and Center TRACON Automation System or 
the converging runway display?
    Mr. Donohue. Yes, sir, it will. In addition to many other 
things where the whole world is changing through ICAO, going to 
automatic dependence surveillance broadcast, digital data links 
and a number of other things that we know that are coming down 
the road that the whole international community is going to, 
and we need a system that can accommodate those growth things 
over the next 10 years.
    Mr. Sabo. Okay. So with the current development of the 
software and the programs for STARS, they would be compatible 
with all of these programs?
    Mr. Donohue. Yes, sir. Basically, the engineers who work on 
these developments all work for me. They are doing the ARTS 
system as well as the STARS system, so they fully understand 
the differences and why we are doing different systems.
    I think the systems that Mr. McNally likes very much were 
produced by very competent engineers on our staff with very 
competent contractors. So we think they are good systems or we 
wouldn't be doing them. We just need a system that goes far 
beyond that.
    Mr. Sabo. The reason I ask is because I have had some 
expression of concerns that with STARS our local airport would 
have to discontinue the use of simultaneous instrument 
approaches.
    Mr. Donohue. Not to my knowledge, sir, at all.
    Mr. McNally. Mr. Sabo, if we can answer.
    Mr. Sabo. Yes.
    Mr. White. Yes, sir. I would like to clarify that a little 
bit. In fact, it is true, because the presentation of the data 
on STARS that Mr. Donohue and Mr. Morgan speak of, the 
presentation is not sufficient for us to make sure that 
airplanes will be separated. It doesn't look like what we have 
today. The controllers will not have enough information to keep 
their airplanes separated, the way that the STARS display is 
going to give us this information.
    Mr. McNally. It is the underlying--that is the other 
technical piece that we were concerned with, and we are still 
trying to fully flesh out. But the current system under ARTS, 
we have what we call, I guess it is raw radar, that literally 
digital is overlapping the raw radar. Under the STARS we are 
going to have a digital over digital.
    The precision vectoring required for parallel approaches, 
precision vectoring that goes on every day, especially during 
the busy periods, controllers will just literally turn downthe 
top display and they can see an accurate depiction of the actual 
aircraft trajectory through the sky; where in STARS it is going to be a 
very digitized type of display, similar to the enroute environment, 
which is an approximation of where it is. So on very highly precision 
type of vectoring, it is going to have an impact, and that is what we 
have been trying to tell the agency.
    That is the art and science of the air traffic controller, 
especially when you get down to the tight confines of a 
terminal environment.
    Mr. Sabo. Is this because of hardware or software problems, 
the various programs?
    Mr. McNally. Well, I believe it is software and the 
depiction of the data actually on the radar scope.
    Mr. Morgan. Mr. Sabo, on that particular issue, I had not 
heard it presented in that format, and we will go back and take 
a look at it. At our recently installed parallel runway 
monitoring at St. Paul-Minneapolis, it currently has an 
independent system with independent displays. If, in fact, 
there was any loss of capability, we would retain those 
independent displays for a period of time until such time that 
we could resolve that particular issue.
    Certainly with any new system, it is not our intent to ever 
compromise safety or decrease the capacity of the system. In 
fact, just the opposite is true. We are trying to increase the 
safety and increase capacity also.
    Mr. Mead. This is a good illustration of why we need a 
formal evaluation over the next several months, so the 
controllers can say, ``This is how this system is not meeting 
my needs.'' We cannot have issues like this stringing out so 
that we have to have a congressional hearing every time we have 
an issue.
    Once this system gets fielded, it will be an expensive 
system. We had better make sure it is going to meet the 
controllers' needs. That is why I think there is some urgency 
to getting this evaluation underway, sir.
    Mr. Donohue. Just one final comment on this. It is a 
technical one, but in the modern systems there is no analog 
anywhere in the system. They are digital radars and digital 
displays. The ASR-9, which feeds into a number of these Common 
ARTS systems, are digital radars. We can make the display look 
like an analog radar with software, and we can do that in the 
STARS system as well. But the new radars are ASR-11, that are 
coming in to replace the ASR-7s and ASR-8s, are all fully 
digital systems. So one of the reasons we don't have knobs on 
these systems anymore, as I don't have in my car anymore, is 
that the whole world has gone to digital.
    Mr. White. Mr. Sabo, I would like to say that that is all 
true, but it is the way that the information is displayed, 
whether it is digital or analog. If it is not displayed in a 
way that we can use it to effectively do our job, then it kind 
of doesn't matter, it doesn't matter that it is digital.
    Mr. Donohue. And those are human computer interface issues, 
where we have a lot of flexibility in the software to change 
those. We take, I think, what the controllers are saying--I 
take what the controllers are saying very seriously. A 
presentation of this information does need to be done in a way 
that they can maintain safe separation of traffic, and that is 
what we need to sit down, as Mr. Mead has said, over the next 
month or so and get those hammered down and locked down and 
written down with great precision so that we can proceed with 
our program.
    Mr. Sabo. Thank you.

                    STARS monitor systems production

    Mr. Wolf. Mr. Packard.
    Mr. Packard. Thank you, Mr. Chairman.
    Mr. Donohue, I have had some concerns about the production 
of the STARS monitor systems. I was somewhat concerned when 
there was no funding for the continuation of the domestic 
production of the monitors during FY 1998. We have, in the 
conference report, language giving instructions on having that 
done by or having a report back by December 15th. Even though 
that date is not here, I would be very interested to know if, 
in fact, you intend to find funds in other parts of your budget 
that would allow the continuation of the monitors--production 
lines to continue moving?
    Mr. Donohue. Yes, sir. We know we have that report due and 
we are working on that right now. We are trying to identify 
where we would find the funds from. We will be getting that 
report.
    Just for some information, we have already purchased and 
ordered over 1,295 of those cathode ray tubes. Our remaining 
options are for 300 tubes only and the question is when we 
execute that option, because we have storehoused right now a 
number of tubes. Those are government furnished equipment no 
matter which way we go, and the tube issue right now is in no 
way holding up the STARS program. But we will address your 
issue. We know we have that--I will need to get back to you on 
that.
    Mr. Packard. Do you intend to have the production lines 
continue to produce the monitors locally?
    Mr. Donohue. Sir, I am--we are trying to identify the funds 
and to look at that, and we will get back once we have it. We 
have to this date not been able to identify the funds.
    Mr. Packard. You are aware that if that is not done, then 
the only other source of monitors would be overseas, and they 
would be much, much more expensive?
    Mr. Donohue. Yes, sir, we are aware of that. There are cash 
flow issues as we have tried to put our budgets together, and 
right now we have a surplus of tubes in stock, and the question 
is just how we find the money, given all the other things we 
are trying to do. But we have not come to a final conclusion on 
that because we are still looking for the money.
    Mr. Mead. Mr. Packard?
    Mr. Packard. Yes, sir.
    Mr. Mead. I would recommend that you request a report from 
FAA on this issue earlier than December 15th, because the 
option expires before then.
    Mr. Packard. When does it expire?
    Mr. Mead. I believe in early November.
    Mr. Packard. Is it possible for you to have a report back?
    Mr. Donohue. I think Mr. Mead is correct. I think we should 
get the report up to you before the option expires----
    Mr. Packard. When does it expire?
    Mr. Donohue [continuing]. Because it is in November when 
our option expires. Now, I think we are also in discussions 
with Sony on modifications of that contract, but--so--but I 
think we should try to get it back to you as quickly as we can.
    Mr. Packard. Could we change the language of the report, 
the report language?
    Mr. Wolf. Well, they have agreed. Let's pick a date today. 
What date does the option expire?
    Mr. Weintrob. November the 1st.
    Mr. Packard. November the what?
    Mr. Weintrob. November the 1st.
    Mr. Donohue. I am told the 1st of November. I didn't know 
that. But we can, even if the option expires, we can do a 
modification.
    Mr. Wolf. Can you get an extension?
    Mr. Donohue. Yes, I think we could get an extension. The 
question is for how long. We will work with that to try to make 
sure we get back to you.
    Mr. Wolf. We should pin that down, George, because I think 
it is a valid thing if you miss it. How long of an extension do 
you think you could get?
    Mr. Donohue. Could I take that off line, because I really 
need to talk to my contracting people on that to get you a 
definitive date.
    Mr. Wolf. Can you get back to us by the end of the day, 
though, or by the end of the----
    Mr. Donohue. Yes sir. My staff indicates we can get back to 
you by the end of the day.
    Mr. Packard. Thank you very much. That is all I have.
    [The information follows:]

    The FAA and Lockheed Martin agreed to extend the period 
during which FAA may exercise an option for additional Sony 
tubes until December 31, 1997.

                       stars development process

    Mr. Wolf. Mr. Olver?
    Mr. Olver. Thank you, Mr. Chairman. I think sitting and 
listening to the several testifiers here is--the most startling 
thing, I think, is the question of whether or not there could 
be some problem with parallel runway landings coming under 
STARS that might not have been considered in here.
    It is hard for me to believe that that is not very easily 
resolvable, but it may be, and I am not sure that you have 
considered it at all, which raises a question of what I would 
say seems to be the main point of difference among the 
testifiers: Namely, I think, that the FAA says or thinks that 
the controllers have been consulted and listened to in this 
process, and the controllers are quite certain that they 
haven't been listened to, even if they have been consulted in 
the process.
    But the sub-plot to that would appear to come from, at 
least in my mind, as I have listened to what has gone on here, 
it seems to me that the sub-plot comes in part from, Mr. 
Chairman, your exploration of what the consensus view here was.
    Mr. McNally, you have expressed that ARTS in its present 
system has evolved over 30 years; its software, its hardware, 
its displays and so forth have evolved over 30 years to the 
point where we are at today, and the FAA is saying, well, okay, 
you would prefer that it would continue to evolve point by 
point. The sub-plot is essentially that evolution, the least 
change, incremental change in that process, is the best way to 
go.
    I am not sure that that is the best way to go. It would 
appear that the FAA is saying, in the process of contracting 
that they are saying, ``We feel we need to create a new species 
that puts the Year 2000 displays in software and hardware in 
place along the way,'' but then that that should then evolve, I 
would assume, because any system has got to be able to be 
flexible enough to evolve.
    Mr. Donohue. Yes, sir.
    Mr. Olver. Why cannot it continue to evolve in this kind of 
way? If you can, give me some sense of your reasoning as to why 
it should not be a continuation of this bit-by-bit incremental 
evolution of software, hardware, displays and so forth that the 
system built up slowly over 30 years has done?
    Mr. Donohue. Well, first of all, I agree that I think the 
ideal is to have a slow evolution in any product, especially 
one where humans interact with machines. Sudden changes or 
quantum jump changes are never desired.
    We have been make incremental improvements over 30 years 
but there comes a point when the underlying computer hardware, 
the very technical issues and how the computer busses are 
structured, et cetera, come to an end of what you can use. You 
have to jump to a new technology.
    The supportability becomes very difficult. We have today 
probably at least 3, if not 4, different versions of TRACON 
displays throughout the system, with different versions of 
software, different versions of hardware, very expensive to 
maintain. It is our goal to go to a common system, but in the 
process we have tried to take an incremental step towards 
commonality with the Common ARTS which I think we have heard 
is--I think the controllers have had a tremendous amount of 
input into how that system was put together.
    We are now, however, at a stage where we have run out of 
the underlying technologies to be able to move into the 21st 
century.
    The requirements that we put together for this system, I 
think Mr. McNally stated they were very much involved in the 
requirements study early on. Lockheed Martin, who is building 
the Common ARTS system, bid on that system, as did Boeing, as 
did Raytheon. I will note that Lockheed Martin did not bid the 
ARTS system or the Common ARTS system to those requirements 
because they did not feel--obviously they did not feel that 
they could meet the requirements of where we are going in the 
future.
    We are looking at new advances in software engineering to 
make critical safety issues done in a better way, such as 
nuclear power plants, et cetera, and those architectures are 
evolving. They are different than the ones we have been using 
in the ARTS system. Totally independent and redundant and 
backup systems on the software, as well as on the hardware, are 
current thinking today in how you have a fail-safe system.
    We need to increase the safety of the system. We need to 
increase the reliability of what we have got for the future 
that we are going into. And we believe, the engineering team 
believes, that from the technical standpoint, the stuff behind 
the screen, that what Raytheon has gives us the best and safest 
system to move into the future.
    Mr. Olver. You know, as a long ago scientist it seems to 
me, in watching the flow of technology, it seems to me that 
there does come a point where it may not be the best thing to 
continue with incremental change in a system that has slowly 
evolved, in several different components coming together, and 
you have to put everything together at a point in time and then 
start that process again. So that makes, to me, a certain 
amount of sense.
    But within all of this, then we have you folks from the FAA 
coming in and agreeing, in large measure, with what Mr. Mead 
has said. I don't have enough time to go into details about the 
individual bits like opaque windows and heads-down time and 
keyboard issues and so forth, but you agree that he makes good 
points, and yet what I do not see here is any very clear 
mechanism.
    What is the process? Is there a process? And what is the 
process for getting input among controllers and the FAA and 
your engineers and so forth to nail down these human factors 
that we are talking about and to make certain that in fact, if 
there are some of them, that they aren't merely heard and then 
forgotten, that some of them may have great legitimacy?
    Although I must say, my guess is that most any of the kids 
in middle school or in high school nowadays would probably find 
the STARS keyboard system greatly to their liking. I must say 
my first reaction was, oh, a sequential keyboard. Then I 
thought to myself, well, I am a typist. I would have to look 
down a long, long time to figure out how to use a sequential 
system. So this is just one point in whether one sticks with 
what you have got or you go to a system that is used in 
virtually all PC computers and so forth along the way.
    What is the mechanism? Is there a mechanism for what you 
say and agree is a consultation that ought to go forward? I 
mean, I think that is the crux of this thing. Is there a 
certain mechanism for assessment of these human factors and for 
making certain that they have been dealt with and actually 
dealt with in an honest kind of a way?
    Mr. Morgan. Mr. Olver, the system that is in place, if I 
might, I would like to use the display system replacement as 
the model of what many of us at the table might view as the 
appropriate way, where we have a representative from the union, 
representatives from the airway facilities organization, the 
technicians who maintain the equipment, plus agency employees 
working together to try to do the right thing.
    The STARS program is being conducted much in the same 
manner with a much different time frame, much more compressed 
time frame, and December of this year will be the first time 
that the controller teams will have an opportunity to see 
something that replicates close to what we will be deploying in 
the STARS system.
    We have various proposals. We bid a commercial off-the-
shelf system, we received a commercial off-the-shelf system, 
and the contractor, Raytheon, is in the process of developing 
that system. There is a significant amount of development 
software to accommodate our needs.
    An example would be that the controllers, when they were at 
the technical center, identified the need for the transparent 
window versus the opaque window. I have had an opportunity to 
see the transparent windows because the Raytheon Corporation 
has responded to that need, in their next delivery of the 
software.
    The first time that we will have an opportunity----
    Mr. Olver. This goes to the original comment I think that 
you made, that this is a work in progress and these things are 
just brought up.
    Mr. Donohue. Right.

                             human factors

    Mr. Olver. Well, clearly the controllers don't think that 
there is a system there that will allow these things to be 
dealt with and done so on the human factors, with a sufficient 
study of the human factors, one by one, in the decision to be 
made. Maybe I will have to ask them to respond to what is the 
system that is there and what would be a system that would 
work.
    Mr. Morgan. If I might just add, before they respond, the 
human factors study that Mr. Mead has mentioned is something 
that we need, we need to do it and we need to baseline it. It 
has been in the plan to go ahead and baseline, and we need to 
get on with that, and we intend on doing that.
    Mr. McNally. I guess I will answer your question, sir, 
because this is the process; you are looking at him. He is the 
entire process up until this date. A meeting that occurred, 
occurred literally a month ago, in which controllers were 
basically threatened if they don't accept the system, they can 
go and file their unfair labor practices or what have you, that 
has been the process.
    You are talking about a system now that is ready to be 
deployed and now they say, ``Okay, now, take a look at it and 
tell us what you think.'' It is a little bit after the fact, I 
think. A human factor study is going to be done when? After it 
is implemented and when we are working with it?
    Mr. Olver. Well, they have only been in it--they have only 
had the contract for one year----
    Mr. McNally. But the system doesn't work right in that 
area.
    Mr. Olver [continuing]. As opposed to being in operation 
for another year or something like that, I think. Is that 
right, roughly correct, in its first deployment?
    Mr. White. It is supposed to be deployed in Boston in the 
summer of 1998, with taking the old equipment away in December 
of 1998.
    Mr. McNally. I am sorry.
    Mr. White. The system is supposed to be actually deployed 
and delivered to Boston in the summer of 1998, with the 
operational readiness demonstration in December of 1998, and I 
believe that the operational test and evaluation is in the 
spring. I believe it is April of this year, so it is not too 
far away. So I agree with Mr. McNally's comments.
    And also regarding the process, I was the only one there. 
There were two or three meetings going on at a time. The FAA 
did not tell me about meetings. I was actually thrown out of 
meetings. So there really is no process in place for--they may 
listen to us, as you said earlier, but I don't believe that 
they are hearing us.
    Mr. Olver. Mr. Chairman, I think I, out of this, would be 
most concerned about making certain that there is a process 
that apparently the FAA agrees ought to be there and has been 
identified by the IG, that looks at these human factors that 
have been raised.
    There seems to be a relatively narrow group of them that I 
cannot evaluate, obviously. I have some thoughts about some of 
them but surely cannot evaluate. That needs to be evaluated and 
dealt with.

                           mitre corporation

    Mr. Wolf. Well, I think the gentleman is accurate. I think, 
Mr. Donohue, what you ought to do is get MITRE Corporation--and 
you have a history of working with MITRE.
    Mr. Donohue. Yes.
    Mr. Wolf. And I know MITRE. Do you have confidence in 
MITRE?
    Mr. McNally. Yes, sir.
    Mr. Wolf. And get MITRE--Ken, do you believe MITRE is a 
credible group?
    Mr. Mead. Yes. I don't want to get in the business of----
    Mr. Wolf. No, but I just wanted to ask you a question on 
this.
    Mr. Mead. Yes.
    Mr. Wolf. And I thought that if you could get MITRE with 
some human factors people----
    Mr. Pastor. Mr. Chairman, do you want to tell us who MITRE 
is?
    Mr. Wolf. MITRE is a governmental research, quasi-
governmental, operation. It is in northern Virginia. It is also 
in Massachusetts. It is around the country. They do research 
and development for and planning and work for the departments, 
for the FAA--it is a nonprofit.
    Mr. Donohue. It is a federally-funded research and 
development center, and there are a number of those, mostly 
with the Defense Department, some with the Energy Department 
and part of the MITRE Corporation, which was a spin-off of MIT, 
which--and we work here in Virginia, about 300 or so 
professionals who work with us on a routine basis. They are 
very competent people, and I believe they have some very good 
human factors people.
    Mr. Wolf. Before I finish, Mr. Pastor, do you want to ask a 
question?
    Mr. Pastor. I was going to make a comment, if they had any 
conflict resolution capabilities.
    Mr. Wolf. Well, that was my other point, is that when we 
bring in Bill Richardson from the U.N.
    Mr. Pastor. You have to do fast track first. [Laughter.]
    Mr. Wolf. We will bring in a human factors person. And I 
think you could get a contract with MITRE up and running pretty 
fast.
    Mr. Donohue. Sir, as you know, we have a contract with 
them.
    Mr. Wolf. Yes.
    Mr. Donohue. That is all controlled by law, and by your law 
and within--we have a lot of flexibility within the head count. 
I believe they will be involved, along with FAA human factors 
people, with the unions, and it is our plan within the next 
month, when we have a full--in December we should have a much 
more representative system of what we are buying, that we can 
work with our human factors people and the unions, with about 
100--we would like to have about 100 controllers involved in 
doing evaluation. We agree that one person carries an awful 
weight on their shoulders, but we need to get someone that is 
representative of the national labor force.
    Mr. Wolf. Mr. Olver had a good point. Do you think it would 
be appropriate, then, that we maybe ask MITRE to see if they 
want to bring in a human factors person who is outside of the 
FAA to look at the FAA human factors? I know the IG is going to 
monitor it; we are not asking you to be the honest broker. But 
does that make sense, that we could do that?
    Mr. Tiahrt. Mr. Chairman?
    Mr. Wolf. Yes.
    Mr. Tiahrt. You know, there is a contractor in place that 
has human factors engineers. If you set up a system where the 
people who are going to be operating the system can quantify 
their complaints, I think there are people probably already 
under contract today that would have the capability of doing 
this. I am not sure why we are spending money that could be 
available for something else, for something that the capability 
already exists today.
    Mr. Wolf. You know, it does, except I will tell the 
gentlemen, I have been here since 1980. I watched Lynn Helms 
testify. It was around the corner. He said he was going to have 
this AAS system in within a period of time. Lynn Helms is still 
here. He is retired. He lives up in Greenwich, Connecticut.
    We have spent how much money? We have spent billions of 
dollars on this. As long as I am chairman--one, I don't want 
this on my conscience when an airplane crashes; two, there are 
massive delays that people are talking about; and, three, we 
have cost overruns here.
    I haven't questioned the contractor. I haven't been 
critical of the contractor. Frankly, I haven't been critical of 
anybody. I just wanted to bring everybody together.
    Now, a contractor might have a cozy relationship with the 
FAA and may be reluctant to actually say anything, because if 
they say too much the FAA cuts them off and the next time they 
don't get the contract. I mean, wait until you read the 
material, and I would ask everybody in the committee to read 
it. Wait until you read the material that the FAA put out 
saying, ``When you go up and visit Wolf, don't give him the 
material,'' don't do this.
    The fact is, you are probably not the person that ought to 
be here. The other gentleman who is not here is probably more 
than 50 percent, and he isn't here and he probably isn't here 
because you know my sensitivity to him, that I wouldn't believe 
him. So there is a lot that goes on behind the scene.
    We are not questioning the contract. You know, Raytheon is 
a good company, and the Raytheon people have been in front of 
me. We haven't said anything critical about it, but I just want 
to make sure that everyone feels comfortable. And MITRE is 
already on contract with them. MITRE can do that.
    We are not really arbitrating--I mean, Raytheon, correct 
me, is doing what you asked them to do. Correct?
    Mr. Donohue. Yes, sir.
    Mr. Wolf. Yes.
    Mr. Donohue. But Raytheon also does have human factors 
experts.
    Mr. Wolf. Well, Raytheon has human factors, as do a lot of 
people. I mean, if they want to come in--they are your 
contractor.
    Mr. Donohue. Yes, sir.
    Mr. Wolf. They will be working with you.
    Mr. Donohue. Yes, sir.
    Mr. Wolf. But I just wanted somebody that has a history 
with the agency.
    And how much business, for the record, so the committee 
knows, how much business do you do with MITRE? Significantly?
    Mr. Donohue. Yes; about 300 professional man-years. More 
than that, 310 professional man-years. It is about $60-some-
million. I don't know the exact number but it is on that order.
    Mr. Tiahrt. Mr. Chairman, I have been to the MITRE facility 
in Boston, inside the facility, and I have dealt with them in 
the past. I know they are a very fine organization and very 
credible, from my personal experience before I had this job. My 
only concern is that this is not a bottomless pit and we are 
not throwing money away. We develop redundant systems for a 
reason, for safety reasons, but there may not be a need for 
redundant engineering.
    Mr. Wolf. But this is really an outgrowth of the AAS. This 
is really what Lynn Helms was kind of----
    Mr. Donohue. This is part of it, yes, sir.
    Mr. Wolf. Right. Where were you in 1982? Were you in 
college? I mean, where were you?
    Mr. Donohue. I was chasing submarines, sir.
    Mr. Wolf. And so, you know, this isn't a reflection on 
Raytheon. It is not a reflection on George Donohue. I just want 
to bring the process together. The Raytheon people, human 
factors people will be involved, but just to have one honest--
not that the others aren't honest, but one person who has no 
vested interest in it.
    Mr. Mead. Mr. Chairman?
    Mr. Wolf. Since they are under contract with them now.
    Yes?
    Mr. Mead. One approach might be to have FAA get together 
with the controllers over the next week, and report back to the 
committee on how the human-factors issue are going to be 
broached to the contractors.
    I also know the controllers have consulted with the 
Department of Transportation's own Volpe Center in Cambridge, 
and I have conversed directly with their human factors expert 
on the STARS issue. They are already up to speed on this, and I 
think the controllers have some confidence in this individual's 
judgment. So there is possibly a deliberative approach that--if 
we could have a couple of days to reflect on it and get back to 
the committee--would consider all these different facts.
    Mr. Wolf. Okay. Let's do that.
    Mr. Olver?
    Mr. Olver. Mr. Chairman, if I may say so, Mr. Mead has 
offered a suggestion that we have MITRE human service people 
and Volpe Center human factors people, and then we will need a 
third person in this arbitration team between the FAA and 
controllers on these issues.
    Mr. Pastor. I think I will suggest a conflict resolution 
person.
    Mr. Wolf. Let me just say, do that.
    I would like to see you use the MITRE Corporation, knowing 
of their history with regard to the FAA and knowing that they 
are not going to be reluctant to come out and say whatever the 
problem is.
    You can talk to the Volpe people and you can talk--
obviously involve the Raytheon people and do that. But I think, 
Mr. Olver and Mr. Pastor, somebody has got to make a decision 
and everyone--the controllers said that they have confidence in 
them. You obviously have confidence in them, Mr. Donohue, or 
you wouldn't have them. And I think that is where we ought to 
go to resolve this, because we don't want to have this hearing 
two years from now and find out that there are massive cost 
overruns or there have been major accidents, or after you put 
this thing into Boston, there are massive delays, and that the 
committee was responsible.
    Mr. Olver, I don't know if you had any questions.
    Mr. Olver. No.
    Mr. Wolf. Mr. Tiahrt?
    Mr. Tiahrt. First of all, Mr. Chairman, I would like to 
submit my opening statement.
    Mr. Wolf. Sure.
    [The prepared statement of Hon. Todd Tiahrt follows:]


[Pages 72 - 73--The official Committee record contains additional material here.]



    Mr. Tiahrt. I was a little late. I am moving a little slow 
today.
    Mr. Wolf. What happened?
    Mr. Tiahrt. I was playing basketball yesterday. I still 
think I am 21. I sprained my ankle.
    I have a couple of questions.
    Mr. Wolf. You must have been something in your prime, I 
bet.
    Mr. Sabo. He is still a football player.

                        contract award schedule

    Mr. Tiahrt. I noticed from the schedule that there was a 
slide in the contract award of about a month. Did that reflect 
in the overall schedule? We are looking at a milestone coming 
up November of 1997, and it is a 2-month slide to the right. It 
looks like--is that just a 1-month slide to the contract or is 
that a 2-month slide to the contract?
    [The information follows:]

    The STARS contract was awarded by the FAA on September 16, 
1996, which was two weeks ahead of the scheduled award date of 
September 30, 1996.

    Mr. Tiahrt. I was a little puzzled. I don't know whose 
chart this is but it looks like we started off with a slide on 
contract award, and I know that impacts everything downstream, 
so I am not surprised there is some delay going on. I just 
wondered if that is accounted for in the schedule you gave us.
    Mr. Donohue. Yes, sir. We are tracking multiple schedules, 
and some of these things can be done in parallel, as I said in 
my statement.
    Mr. Tiahrt. Is this yours, though?
    Mr. Donohue. I have not----
    Mr. Mead. That is ours, sir.
    Mr. Tiahrt. Okay. I won't hold him accountable for it, 
then.
    Mr. Donohue. We are tracking the software development 
schedule somewhat separately from the hardware development 
schedule, including our risk mitigation approach, which is kind 
of our first level of insurance policy, to meet what we think 
is a critical time obsolescence of the existing system. So we 
believe we have got some--we structured this contract, and 
actually it was proposed this way. One of the reasons we went 
with Raytheon is because they gave us a lot of flexibility in 
trying to meet a very critical issue for air traffic control of 
replacing existing hardware, and leaving us some flexibility to 
get the software right because we have interim software systems 
that we can use.
    Mr. Tiahrt. You have kept the baseline, as far as the 
specifications, stable, though, is that right?
    Mr. Donohue. The overall requirements, I believe, have been 
stable. The overall requirements at the high level were set, I 
believe, with adequate----
    Mr. Tiahrt. There was some input at that time from the 
gentleman on the end.
    Mr. White. No, sir, that was my predecessor who had done 
that input, so I don't know.
    Mr. Tiahrt. He was there when the specifications were 
written?
    Mr. McNally. Yes. We had someone working with them in the 
general requirements stage.
    Mr. Tiahrt. Was there someone from the Department of 
Defense, as far as their air traffic controllers, that was 
available?
    Mr. Donohue. Yes, sir.
    Mr. Tiahrt. So some of the users had input when you 
developed the specifications?
    Mr. Donohue. Yes, sir. The difficulty, I think, here is 
that we increasingly recognized that we don't have the 
resources to custom develop everything, much as the Defense 
Department has done for many years. Even they have recognized 
that we cannot keep doing that. So we need to try to take 
maximum advantage of commercial standards, commercial systems, 
or systems that were built for this application but from 
someplace else.

                        keyboard specifications

    Mr. Tiahrt. The keyboard is a good example. You know, the 
standard keyboard is something--and by the way, I think you are 
going to hire a bunch of new air traffic controllers, and I 
would wager that each of those are familiar with the standard 
keyboard that comes with a PC versus the--I don't know what you 
call the ABC keyboard.
    Mr. Donohue. We call it ABC keyboard.
    Mr. Tiahrt. Okay, the ABC keyboard. To me, just looking 
into the future, you would want something that is standard, 
that everybody recognizes. We teach our kids on the standard 
keyboard in elementary school. My kids sit down at a computer 
today, and if they ever choose to be an air traffic controller, 
that just makes sense to me. I am a little concerned about 
changing the baseline, because it is not a bottomless pit. And 
when you change----
    Mr. Donohue. That is right.
    Mr. Tiahrt [continuing]. The specifications, and I know 
there are some things pending, that is a matter of schedule and 
cost. It slides the schedule further and it costs money, 
because it is over what you required of the contractor to bid 
on.
    So I just want to make the point that this is not a 
bottomless pit. When you are talking about opaque windows 
versus translucent windows, that is just a matter of time and 
money.
    Mr. Donohue. Right.

                              natca issues

    Mr. Tiahrt. Those can be accomplished. I am not sure that 
it is exactly what you want. To me, a translucent window would 
cause confusion because you have multi layers of writing. But 
you ought to go look at it and see what you think.
    I am a little concerned about this list of pending items 
that NATCA has out there. Have you developed a list that you 
have not shared with the FAA? Is there something pending out 
there?
    Mr. McNally. We have--well, some of the obvious CHI issues 
have already been identified. We have identified a 
technological issue. We have not had the ability to play with 
the system long enough and have enough people to look at it to 
have a full understanding.
    Mr. Tiahrt. But you are not withholding anything?
    Mr. McNally. No.
    Mr. Tiahrt. Okay. So if a system was put in place, it would 
be new items that you would be discussing with them and not 
past items that you are frustrated with?
    Mr. McNally. No. I mean, it would be new items that we 
would have to identify, yes.
    Mr. Tiahrt. Okay.
    Mr. McNally. I mean, there are some issues--just on the 
opaque versus clear versus fuzzy, there is just some basic 
windows-driven type of system, heavily reliant windows-driven 
system, that is a major concern. It is heads-down time. You are 
not looking at the datablocks. You are looking at other things. 
You are typing on a keyboard. You are not looking at the 
datablocks.
    Mr. Tiahrt. But isn't that----
    Mr. McNally. The terminal environment, it is seconds; you 
have seconds to make a move. You don't have a minute to type 
something in. I have to, if somebody misses the final by one 
mile, I have to start a daisy chain vectoring behind them in 
order to maintain the spacing requirements. These are seconds 
types of things.
    The current system does not require a lot of heads-down 
time. The controller hardly even looks at the keyboard. They 
just go and they are looking at the radar scope. So these are 
very drastic changes. These are not minor changes.
    Mr. Tiahrt. Well----
    Mr. McNally. And by the way, sir, we are not----
    Mr. Tiahrt. But it is primarily a matter of training. I 
mean, I am thinking when you get a new software program or 
something new comes on-line, you get training, and within a 
short amount of time you will be able to react to what is on 
screen and still with your eye/hand coordination be able to 
handle it. It will be a transition period, no doubt.
    But I think it is matter of training.
    There are some things that I am a little concerned about, 
that you are going to change the baseline contract and cost 
more money and delay the schedule. That may not be acceptable 
to advanced technology or for new controllers coming in to have 
to be retrained on the ABC versus the keyboard.
    So I just wanted to remind you once again that it is a 
matter of schedule and cost, and it is not a bottomless pit. 
And, you know, I think there are some contract negotiations 
pending. Is that true?
    Mr. McNally. Sir, we have absolutely no issue with 
Raytheon. In fact, we have no issue with any manufacturer.
    Mr. Tiahrt. I am not talking about that. I am talking about 
the baseline contract.
    Mr. McNally. The baseline contract right now is such that 
we have issues that I believe can probably be fixed. We need 
the opportunity to work through these issues. We just haven't 
had those opportunities.
    Mr. Tiahrt. Good.
    Mr. McNally. We have an initial system right now that can 
fix an immediate need. National last night lost six displays. 
They are going to spend, I believe, $60,000 to $80,000 to 
refurbish the FDADS, where you can buy some of these Ollies 
for, I think they are $90,000 to $100,000.
    So we just don't--and they gave us color, which is an 
immediate need that we have, especially in places like DFW. So 
there are----
    Mr. Tiahrt. What is the advantage of color?
    Mr. McNally. I have pictures. But you have to literally 
look at it.
    Mr. Tiahrt. I know it would look different.
    Mr. McNally. No, no, no.
    Mr. Tiahrt. Is there a single advantage?
    Mr. McNally. Yes, there is a definite--right now is the 
capacity issues, especially in places like Dallas/Fort Worth, 
where the data blocks are overlapping so greatly that you can't 
see the data block. You cannot tell who that aircraft is. You 
have----
    Mr. Tiahrt. You don't go by the numbers of the aircraft?
    Mr. McNally. You go by the numbers. You cannot see them. 
They literally overlap each other, and you cannot pick out the 
numbers. Color would literally change--they wouldn't let us 
easily see United versus American; USAir versus whomever.
    So we can manipulate that for a particular need, especially 
in busy airports like Dallas.
    Mr. Tiahrt. These Ollies or ACD's, are they available 
today?
    Mr. McNally. Yes. Well, our understanding is, they are in 
development. I don't know if they are in production.
    Mr. Tiahrt. You have another--I mean, STARS is in 
development, too.
    Mr. McNally. Right.
    Mr. Tiahrt. What is the difference? Is there--I guess I 
cannot see the advantage of going to an ACD. It is like, you 
know, you have got to take your car to the junkyard, it has got 
250,000 miles, and you are driving down there, and you stop at 
the upholstery shop and you reupholster your car before you 
take it to the junkyard.
    I mean, why are we doing this? There ought to be some 
tremendous advantages to this, or else we wouldn't do it.
    Mr. McNally. Well, they are going to pull out radar scopes 
and they are going to send them down, get them painted, and 
bring them back for $80,000, and make minor changes in terms of 
the insides.
    Mr. Tiahrt. You mean as far as colors?
    Mr. McNally. No. I am talking about the current FDADS, the 
black--the ones that we currently have in place today, because 
there is an immediate need between now and when STARS 
ultimately is implemented because the system is--I mean, New 
York TRACON is an example--doesn't have any more backup scopes. 
So the next time a scope goes down, they combine sectors.
    Mr. Tiahrt. So when would they be available? Does anyone 
know when an Ollie would be available? I mean, it is still in 
development.
    Mr. Donohue. Yes, sir. I tried to state in my testimony----
    Mr. Tiahrt. They are parallel systems.
    Mr. Donohue. In my testimony, I did say it would take over 
a year, in our estimate, for Ollie to go into, say, Washington 
National. We have made a commitment, the administrator made a 
commitment, to get new displays into Washington National this 
summer. We believe the only path in being able to meet that 
schedule is, in fact, with the STARS hardware.
    Now, I think the computer-human interface issues that the 
controllers have identified that they like on the Ollie 
displays are--it is very good input for us, because that is the 
sort of thing that we can put into STARS.
    In some sense, Ollie has been part of the prototyping for 
the STARS from the computer-human input, because that was 
available prior to where we could get the Raytheon equipment in 
that time frame.
    Mr. Tiahrt. This brings out another concern I have. I 
understand you are still using the paper strips. Is that part 
of the----
    Mr. Morgan. Yes.
    Mr. McNally. Yes.
    Mr. Tiahrt. And that is at your request, at NATCA's 
request. Am I correct in saying that?
    Mr. McNally. No. No. The paper strips were to go away 
during the advanced automation system. That fell apart, so that 
is the only option we have right now.
    Mr. Tiahrt. Does STARS have paper strips in its----
    Mr. McNally. Yes.
    Mr. Tiahrt. Is it going to be--when I get a brand new STARS 
machine, will it still have paper strips as part of the 
overall?
    Mr. Morgan. Terminal facilities are a little bit different 
than the enroute facilities. Terminal facilities, some use 
strips; others do not. When STARS comes along, you will still 
need strips at those locations that use strips.
    It is a different environment. They do not keep flight plan 
data. They keep other types of data for departing runways or 
complexes that were used. So it is much different in the 
terminal environment.
    Mr. Tiahrt. Okay. I guess I don't understand it.
    Mr. Mead. You are----
    Mr. Tiahrt. I don't want us dragging our feet on new 
technology here when you stay with the paper strips.
    Mr. Mead. You are correct, sir. In the AAS days, the 
original design was to get rid of the flight strips, and it was 
a major human factor issue that the controllers raised when 
they were involved. They wanted the flight strips. I believe 
that concept has been carried over.
    Mr. Donohue. If I could comment on that.
    Mr. Wolf. I just wanted to come back to that, Mr. Pastor. 
But go ahead. I want your comment, obviously.
    Mr. Donohue. Well, I think what we have--what we have done 
is, we have been able to accommodate flight strips where people 
want them, but the systems that we are buying, the DSR and the 
STARS are being set up so that you don't have to use flight 
strips. I think it is a transition period.
    What we have seen in other countries that have gone through 
this transition is that many of the controllers decide that, 
once they see the new equipment and they get comfortable with 
it, they don't choose to use flight strips anymore.
    But this is a human transition issue that we are taking 
seriously, and I think we are trying to build a system that 
allows that migration.
    Mr. Tiahrt. I just have one more question.
    Mr. Wolf. Okay.
    Mr. Tiahrt. And it really goes back to one I previously 
asked. I think there are pending contract negotiations. I don't 
remember the schedule.
    Mr. McNally. That is correct.
    Mr. Tiahrt. I just hope that there is no spillover from the 
requirements development versus the contract negotiations, 
because I want to see this come on-line. I mean, a 1-month 
slide, it looks like they are going to make up schedule by 
December. I hope they are on-line by December. I just don't 
want it to spill over. I just want to make that part of the 
record.
    Thank you very much, Mr. Chairman.
    Mr. Wolf. Thank you.
    Mr. Pastor.
    Mr. Pastor. Mr. Chairman, thank you very much.
    First of all, let me thank you for having this hearing. 
Sometimes, rightfully or wrongfully, we are accused of doing 
things because of a special interest group, and I have to tell 
you unequivocally, there is a great interest group, at least on 
my part, and it is me, having to fly every weekend 4,000 miles 
and landing in Chicago or Dallas and then landing at National. 
And when I hear that 6 out of the 10 computers were out last 
night and knowing that I have to leave out of National tomorrow 
doesn't give me a great sense of confidence.
    But, you know, I jokingly have said several times that 
possibly the one company we need is someone that does conflict 
resolution, and I think I am probably not too far from the 
truth.
    If you look at the testimony that was given on page 3 by 
Mr. McNally, his first paragraph deals with the current system 
and how it has been upgraded, has been integrated, and it is 
working, and they feel very comfortable with the system.
    In conflict to that is what the FAA has done and decided 
that they are going to go into a new system because now they 
are--they have got to go to the 21st century; that is the 
bridge to the 21st century.
    So there is a conflict here because--and I think that the 
contract negotiations will overlap into this. We will--as much 
as we don't want them to happen, it will happen.
    But I think that one of the things that we have to keep in 
mind, both management and the employees, is that we are talking 
about safety. We are talking about safety. That should be the 
highest priority, and it is important to have a different color 
on a panel or maybe a different knob on a panel or maybe a 
different keyboard, but the overriding issue ought to be, what 
system do we need to make sure that the American public that is 
flying and will be flying--more people will be flying through 
this country--that are safe but at the same time knowing that 
the controllers, who are the ones that guide these planes in 
and out, have the resources to be able to land these planes or 
have these planes take off in the most safe manner.
    So I know that there are other issues that may affect you, 
but I think what we need to do--and I agree with Mr. Mead--is, 
very quickly, let's get on the road of bringing the computer 
system to the most safe situation that we can.
    And I thank you, Mr. Chairman. But I think maybe this 
should be one of many hearings that maybe we need to have them 
come in on occasion just to see where they are at and see what 
some of the problems are, because I agree with you, we cannot 
come back 20 years from now or have a hearing here why 
something happened because the computer system just didn't 
function.
    And so I would tell you that I think this committee is 
going to have, through your leadership, probably more oversight 
and require both or all three parties or four parties, whatever 
it is, to come in on occasion and give us an update of what is 
happening.
    So thank you, Mr. Chairman.
    Mr. Wolf. Thank you, Mr. Pastor. I appreciate your 
comments.
    We will do that. And when the FAA comes back, obviously, 
this will be an issue when we begin the appropriations process.
    Congresswoman Morella, who has had a long-term interest 
particularly in the National issue.

                            National Airport

    Mrs. Morella. Thank you, Mr. Chairman.
    In fact, that is why I am here. And I appreciate your 
allowing me to be here at this very important subcommittee 
hearing.
    As you know, I chair the Technology Subcommittee of the 
Science Committee, which has authorization over the FAA 
research, engineering, and development, and we just recently, 
earlier this year, went to National Airport to see the new 
airport, as you know, because we met with you and saw the air 
traffic control tour and the TRACON situation.
    We are very disturbed at the fact that there were the radar 
monitor problems at National that had been documented since 
August of 1996 that, on over 100 separate occasions, at least 
one monitor failed, and just last night--you know, just 
yesterday, the failure of six scopes last night indicates the 
severity of the problem.
    The performances of the controllers to date has been 
extraordinary. However, we all felt that it was necessary to 
take immediate steps to try to remedy it. So I met with the new 
administrator, Jane Garvey--again, this is history for many of 
you--to discuss the possible solutions to National Airport's 
aging radar display crisis, and so we are getting monthly 
reports. We got one, and she indicated that the FAA would begin 
testing possible options with a goal of replacing radar display 
monitors at National by the summer of 1998, which is 2 and a 
half years earlier than originally.
    So I wanted to ask Mr. McNally, how does NATCA view the 
accuracy of the radar display monitors used at Washington 
National Airport?
    Mr. McNally. I am sorry, which display? The current 
display?
    Mrs. Morella. Right, current; the ACD, right.
    Mr. McNally. Well, the ACD; naturally, they are unreliable, 
just the actual radar displays themselves.
    Mrs. Morella. Have they been refurbished?
    Mr. McNally. I cannot answer that question, but I believe 
Andy Akers, who is sitting there, can.
    Mr. Akers. Yes.
    Mrs. Morella. They have been?
    Mr. Akers. Yes. We have taken further steps.
    Mrs. Morella. How do we account for what happened yesterday 
then?
    Mr. Akers. They are still 20 years old. It is like what 
they said.
    Mr. Wolf. Would you identify yourself for the record, for 
the reporter?
    Mr. Akers. Andy Akers, NATCA National, Washington National.
    Mrs. Morella. Then let me ask Mr. Mead, the Inspector 
General, the FAA has indicated that the new radar display 
equipment could be implemented at National by next summer 
without disrupting the airport's overall operation. Is the 
FAA's assumption realistic?
    Mr. Mead. Dates with FAA are always ones you circumspectly 
buy into or not buy into. I would say that is an approximately 
realistic timeframe.
    But if you go forward with a STARS display now and have 
that installed at National, you will experience human-factor 
problems. Those displays will have to be modified to address 
the human-factor issues if you are going to make the date of 
May.
    Furthermore, your window for making those fixes is very 
limited. I would guess it would be about 2 or 3 months, which 
means that, beginning tomorrow, they ought to get hot on these 
human factors.
    Mrs. Morella. I think that is what your committee meeting 
here today, Congressman Wolf, has certainly emphasized, 
appropriately so, the human factors and the fact that this is a 
partnership; we do have to work together.
    I would ask you, Mr. Morgan: NATCA's facility 
representative has expressed concern that the implementation of 
new equipment could disrupt the airport's overall operation, 
and in your testimony you indicated that significant training 
would not be required to use a transition system, especially if 
the current keyboard and tracking ball are retained. We know 
now they may not be retained.
    Will your interim efforts to update the monitors at 
National require significant retraining of the controllers?
    Mr. Morgan. Good afternoon, Congresswoman Morella.
    If I might, if I could correct the record, what occurred 
last night at National is not a loss of displays. Whenever you 
have a system loss, you lose the data that is fed to the 
displays. And what occurred was, we are in the process of 
replacing the radar, as you know, at National Airport. They had 
switched from one radar system to another, and a piece of 
equipment within what is called the common equipment failed, 
which feeds the displays. The displays individually did not 
fail. It was the data that was coming into those displays.
    The training that you are asking about, we anticipate it 
would take 2 weeks per controller to train on the new displays, 
the STARS displays, once they are delivered. That is common to 
almost any exchange in the system. The same thing is similar 
within the display system replacement in the enroute 
environment.
    Mrs. Morella. Would you like to comment on that?
    Mr. Donohue. Perhaps I could add that it is our intent for 
Washington National, although we will be putting the Raytheon 
hardware in place, we will be operating the ARTS software in 
the back room, and we believe we can accommodate the computer-
human interface issues that the union has brought up for that 
deployment, and it would be our intent to.
    But also the timing, as you can see, is very critical, 
because we are concerned about the hardware, and time and money 
is important to this program. So we do need to make these 
decisions very quickly.
    Mrs. Morella. This has all been such a long time in coming. 
I can remember--maybe I wasn't even in Congress, Chairman Wolf, 
when I remember the whole competition about who was going to be 
the one to get in there and take care of the whole controller 
situation. And I hope now that we have begun to remedy it at 
National, and as this committee is concerned nationwide, too.
    And so I appreciate your allowing me to be here. And I 
appreciate all of you being here.
    Mr. Wolf. Thank you very much.
    I guess, George, we are also going to have some other 
questions also to Mr. Mead and to Mr. McNally. We will just 
submit them for the record.
    Two things. There will be a delay. If you could tell us 
roughly how much of a delay you think it will be. We are not 
going to make you do that today--until we know the other 
factors.
    Secondly, there is going to be an extra cost, and we are 
not going to ask you that today, because until you resolve 
these issues, we don't know what that is. But as you are 
looking for supplementals which come up early in the year, this 
really ought to be in it. Do not wait until--you know, until 
later.
    It seems to me that here is what we have agreed on: One, 
MITRE will be the group; they will bring both sides together. 
We should pick a time, and I think maybe 45 days--I thought 60, 
but 60 gets us into the Christmas break, and I know people go 
away, and so maybe 45 days, which is December 15th; let's say 
December 15th.
    We are not looking for MITRE to be another contractor but a 
facilitator to bring it together.
    Mr. Donohue. Right.
    Mr. Wolf. And the Inspector General's office will stay 
involved to monitor it.
    And then lastly, with regard to Mr. Packard's questions on 
the tubes----
    Mr. Donohue. Right.
    Mr. Wolf [continuing]. If you can come back to the 
Committee by----
    Mr. Donohue. I think we said by the end of the day we will 
get something back to your office.
    Mr. Wolf. Yes, the end of the day, and urge Sony to extend 
that. And I would assume that you have such a good relationship 
with them, you will all threaten not to buy their TV sets in 
any government agency if they don't. So I am sure you will 
probably be able to work that out.
    Before we adjourn, does anybody have any other thing?
    Mr. Tiahrt. Just a couple of questions that I would like to 
write out. Can we submit those?
    Mr. Wolf. Sure. Any Members, sure, any questions for the 
record. And I have a lot of questions for the record, too.

                                Closing

    Mr. Wolf. Do you have anything?
    Mr. Olver. No.
    Mr. Wolf. Okay. Thank you all very much for coming. I 
appreciate it.
    [Questions for the record and other prepared statements 
follow:]



[Pages 84 - 132--The official Committee record contains additional material here.]













                               I N D E X

                               __________

            Standard Terminal Automation Replacement System

                                                                   Page
Acquisition Program..............................................21, 88
Actions Needed....................................................9, 17
Aircraft Display Issue............................................4, 13
ARTS.............................................................    49
Biographies:
    George L. Donohue, Associate Administrator, FAA..............    35
    Kenneth M. Mead, Inspector General, DOT......................    20
    Michael P. McNally, President, NATCA.........................    56
    Ronald E. Morgan, Director of Air Traffic, FAA...............    47
Compatibility with other Equipment...............................    61
Computer--Human Interface......................25, 37, 49, 99, 125, 130
Computer Windows................................................38, 130
Contract Award...................................................    22
Contract Award Schedule..........................................    74
Contract Summary.................................................    59
Controller Input...........................39, 48, 50, 84, 91, 117, 118
Cost Status......................................................   106
Design Concerns and Technical Alternatives.......................   109
Design Issues..............................................58, 109, 127
Display Comparison Stars and ARTS................................     6
Display Ollie....................................................8, 111
Display Opaque Windows...........................................     7
Effectiveness of Integrated Product Teams........................    87
FAA Air Traffic Director Opening Remarks.........................    37
FAA and NATCA Agreement on Design Issues.........................    90
FAA Management...................................................    57
FAA Opening Remarks..............................................    21
FAA Questions for the Record from Chairman Wolf..................    91
FAA--Computer--Human Interface...................................    25
FAA--Need for New Computers......................................    22
FAA--Ollie Displays or ACDS......................................    24
FAA--Software Development Concern................................    23
FAA--Software Interim Milestones.................................    24
FAA--Stars Acquisition Program...................................    21
FAA--Stars Contract Award........................................    22
FAA--Transition Period...........................................    23
FAA--Use of Commercial Technology................................    22
Heads-Down Time Issue.............................................4, 13
Human Factors....................................................67, 85
Human-Factors Issues...................................2, 9, 15, 48, 67
Inspector General Opening Remarks................................     2
Introduction of Witnesses........................................     2
Introductory Remarks.............................................     1
Keyboard Design.................................................38, 130
Keyboard Issue..................................4, 13, 38, 97, 113, 130
Keyboard Specifications..........................................    75
Life Cycle Costs in Acquisition Decisions........................    88
Mitre Corporation................................................    68
NATCA Computer--Human Interface..................................    49
NATCA Issues.....................................................    75
NATCA Opening Remarks............................................    48
NATCA Questions for the Record from Chairman Wolf................   118
NATCA--Common Arts...............................................    49
NATCA--Controller Input..........................................    50
NATCA--Human Factors Research....................................    48
NATCA--Ollie Monitors............................................    50
NATCA--Terminal Controllers......................................    48
National Airport.................................................    80
Need for Human-Factors Evaluation................................     9
New for New Computers.............................................1, 22
Ollie Displays or ACDS.................................24, 50, 111, 129
Opaque Window Issues.........................................3, 13, 114
Opening Remarks:
    FAA..........................................................21, 37
    Inspector General............................................     2
    NATCA........................................................    48
Other Major Stakeholders.........................................    87
Questions for the Record from Representative Todd Tiahrt.........   116
Questions for the Record from Chairman Wolf......................    84
Repair and Maintenance Issue.....................................     9
Role of Chief Scientist for Human Factors........................    85
Software Development........................................16, 23, 102
Software Interim Milestones......................................    24
Stars Development Process........................................23, 65
Stars Main Display Monitors......................................    89
Stars Monitor Systems Production.................................    63
Stars Schedule..............................................19, 86, 104
Stars Safety...................................................116, 126
Starts Schedule as of September 1997.............................    19
Statement of:
    George L. Donohue, Associate Administrator, FAA..............    21
    Michael P. McNally, President, NATCA.........................    52
    Kenneth M. Mead, Inspector General...........................    11
    Ronald E. Morgan, Director of Air Traffic, FAA...............    41
    Todd Tiahrt, U.S. Representative from Kansas.................    72
Statement for the Record of William W. Pearman, FMA..............   128
Technical Status of STARS........................................   102
Trackball Designs................................................    39
Trackball Issue...................................................4, 14
Training Requirements............................................18, 39
Transition Period................................................    23
Use of Commercially Available Products............................9, 22
Writing Space Issue..............................................     5

                             <all>
</pre></body></html>
